<html>
<title> - EDUCATION REGULATIONS: WEIGHING THE BURDEN ON SCHOOLS AND STUDENTS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                    EDUCATION REGULATIONS: WEIGHING
                   THE BURDEN ON SCHOOLS AND STUDENTS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, MARCH 1, 2011

                               __________

                            Serial No. 112-7

                               __________

  Printed for the use of the Committee on Education and the Workforce



                   Available via the World Wide Web:
      http://www.gpoaccess.gov/congress/house/education/index.html
                                   or
            Committee address: http://edworkforce.house.gov



                  U.S. GOVERNMENT PRINTING OFFICE
64-657                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6b0c1b042b081e181f030e071b4508040645">[email&#160;protected]</a>  

                COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Dale E. Kildee, Michigan
Judy Biggert, Illinois               Donald M. Payne, New Jersey
Todd Russell Platts, Pennsylvania    Robert E. Andrews, New Jersey
Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Virginia Foxx, North Carolina            Virginia
Duncan Hunter, California            Lynn C. Woolsey, California
David P. Roe, Tennessee              Ruben Hinojosa, Texas
Glenn Thompson, Pennsylvania         Carolyn McCarthy, New York
Tim Walberg, Michigan                John F. Tierney, Massachusetts
Scott DesJarlais, Tennessee          Dennis J. Kucinich, Ohio
Richard L. Hanna, New York           David Wu, Oregon
Todd Rokita, Indiana                 Rush D. Holt, New Jersey
Larry Bucshon, Indiana               Susan A. Davis, California
Trey Gowdy, South Carolina           Raul M. Grijalva, Arizona
Lou Barletta, Pennsylvania           Timothy H. Bishop, New York
Kristi L. Noem, South Dakota         David Loebsack, Iowa
Martha Roby, Alabama                 Mazie K. Hirono, Hawaii
Joseph J. Heck, Nevada
Dennis A. Ross, Florida
Mike Kelly, Pennsylvania
[Vacant]

                      Barrett Karr, Staff Director
                 Jody Calemine, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on March 1, 2011....................................     1

Statement of Members:
    Kline, Hon. John, Chairman, Committee on Education and the 
      Workforce..................................................     1
        Prepared statement of....................................     3
        Additional submission: Letter, dated March 15, 2011, from 
          the National School Boards Association                     61
    Miller, Hon. George, senior Democratic member, Committee on 
      Education and the Workforce................................     4
        Prepared statement of....................................     6

Statement of Witnesses:
    Hatrick, Dr. Edgar B. III, superintendent, Loudoun County 
      Public Schools.............................................     3
        Prepared statement of....................................    10
    Haycock, Kati, president, the Education Trust................    11
        Prepared statement of....................................    13
    Nelson, Christopher B., president, St. John's College, 
      Annapolis, MD..............................................     3
        Prepared statement of....................................     3
    Wilhoit, Gene, executive director, Council of Chief State 
      School Officers............................................    15
        Prepared statement of....................................    16
        Additional submission: Letter, dated February 1, 2011, to 
          Chairman Kline and Mr. Miller..........................    64


                    EDUCATION REGULATIONS: WEIGHING
                   THE BURDEN ON SCHOOLS AND STUDENTS

                              ----------                              


                         Tuesday, March 1, 2011

                     U.S. House of Representatives

                Committee on Education and the Workforce

                             Washington, DC

                              ----------                              

    The committee met, pursuant to call, at 10:00 a.m., in room 
2175, Rayburn House Office Building, Hon. John Kline [chairman 
of the committee] presiding.
    Present: Representatives Kline, Petri, Biggert, Platts, 
Foxx, Hunter, Roe, Walberg, DesJarlais, Rokita, Bucshon, 
Barletta, Noem, Roby, Heck, Miller, Kildee, Payne, Andrews, 
Scott, Woolsey, McCarthy, Tierney, Kucinich, Davis, Bishop, and 
Hirono.
    Staff present: James Bergeron, Director of Education and 
Human Services Policy; Kirk Boyle, General Counsel; Casey 
Buboltz, Coalitions and Member Services Coordinator; Heather 
Couri, Deputy Director of Education and Human Services Policy; 
Theresa Gambo, Office Administrator; Daniela Garcia, 
Professional Staff Member; Jimmy Hopper, Legislative Assistant; 
Amy Raaf Jones, Education Policy Counsel and Senior Advisor; 
Barrett Karr, Staff Director; Brian Melnyk, Legislative 
Assistant; Brian Newell, Press Secretary--Workforce; Mandy 
Schaumburg, Education and Human Services Oversight Counsel; 
Alex Sollberger, Communications Director; Linda Stevens, Chief 
Clerk/Assistant to the General Counsel; Alissa Strawcutter, 
Deputy Clerk; Tylease Alli, Minority Hearing Clerk; John 
English, Minority Legislative Fellow, Education; Jamie Fasteau, 
Minority Deputy Director of Education Policy; Brian Levin, 
Minority New Media Press Assistant; Kara Marchione, Minority 
Senior Education Policy Advisor; Megan O'Reilly, Minority 
General Counsel; Helen Pajcic, Minority Education Policy 
Advisor; Julie Peller, Minority Deputy Staff Director; 
Alexandria Ruiz, Minority Administrative Assistant to Director 
of Education Policy; Melissa Salmanowitz, Minority Press 
Secretary, and Laura Schifter, Minority Senior Education and 
Disability Policy Advisor.
    Chairman Kline [presiding]. Good morning. We appreciate the 
opportunity to hear the thoughts and expertise of our witnesses 
on this important subject.
    Today's hearing is the first in a series the committee will 
convene to examine the federal rules and regulations that are 
undermining the strength of the nation's education system. 
Education is critical to fostering a competitive workforce, 
encouraging a strong economy, and improving the prosperity of 
future generations. The further a student can advance in his or 
her education, the more likely he or she will be able to secure 
a stable job, earn a sustainable income, and have the tools 
necessary to build a successful future.
    The current state of education in America is troubling and 
unacceptable. Every year, more than a million students fail to 
graduate from high school. Making matters worse, an increasing 
number of students who complete high school are unable to meet 
the costs associated with higher learning.
    Those who do attend college can emerge without the 
knowledge and skills necessary to compete in the workplace. The 
nation's education system is clearly broken, despite escalating 
intervention by policymakers in Washington over the last 45 
years.
    In 1994, the Government Accountability Office conducted a 
review of federal education regulations at the K-12 level and 
the burden they placed on state and local school leaders. The 
GAO discovered states employed 13,400 full-time individuals to 
implement federal education programs. At the time, the federal 
government imposed 41 percent of the administrative burden, yet 
paid just 7 percent of the total costs. Although those figures 
are more than a decade old, the situation hasn't improved. In 
fact, it has gotten worse.
    Recent reforms at the federal level have exacerbated the 
burdens placed on state and local school leaders. States and 
school districts worked 7.8 million hours each year collecting 
and disseminating information required under Title I of federal 
education law. Those hours cost more than $235 million. The 
burden is tremendous. And this is just one of many federal laws 
weighing down our schools.
    Evidence of this costly dynamic was clearly visible during 
the administration's recent experiment with Race to the Top. 
Instead of rewarding states for pursuing innovative solutions 
to advance student achievement, the administration forced 
states to navigate an overly complicated, expensive process and 
adopt policies that reflect the priorities of Washington 
bureaucrats.
    The administration has also tied assistance for states to 
improve under-performing schools to a one-size-fits-all plan to 
boost failing schools. Instead of instituting the common-sense 
reforms our nation needs, initiatives like this merely extend 
the status quo.
    The trend of imposing onerous mandates that lead to greater 
costs and paperwork burdens is also happening in higher 
education. The latest rounds of negotiated rulemaking didn't 
actually clarify the law. Rather, they made it more confusing, 
forcing schools to redirect critical funds to pay the 
inevitable fines or hire outside counsel to help make sense of 
the new regulations.
    This ``Washington knows best'' approach is not helping our 
nation's education system improve. Instead, it is increasing 
regulatory burdens on schools and piling more costs on the 
backs of our students.
    We have to ensure taxpayer dollars are spent wisely and 
effectively. But we must also ensure federal mandates aren't 
road blocks to success in our nation's classrooms. Anyone who 
has talked to a superintendent or a teacher understands that 
federal law can stand in the way of innovative solutions and 
meaningful reform. Reducing the regulatory burden placed on our 
education system makes good fiscal sense and good policy sense.
    The House has charged this committee to look at rules and 
regulations within our jurisdiction that may hinder job 
creation and economic growth. Today's hearing is part of that 
important effort. And we will leave no stone unturned as we 
look to strengthen education and the workforce.
    I look forward to our witnesses' testimonies and will now 
recognize my friend, the distinguished senior Democrat member, 
George Miller, for his opening remarks.
    [The statement of Chairman Kline follows:]

            Prepared Statement of Hon. John Kline, Chairman,
                Committee on Education and the Workforce

    Good morning. We appreciate the opportunity to hear the thoughts 
and expertise of our witnesses on this important subject.
    Today's hearing is the first in a series the committee will convene 
to examine federal rules and regulations that are undermining the 
strength of the nation's education system.
    Education is critical to fostering a competitive workforce, 
encouraging a strong economy, and improving the prosperity of future 
generations. The further a student can advance in his or her education, 
the more likely he or she will be able to secure a stable job, earn a 
sustainable income, and have the tools necessary to build a successful 
future.
    The current state of education in America is troubling and 
unacceptable. Every year, more than a million students fail to graduate 
from high school. Making matters worse, an increasing number of 
students who complete high school are unable to meet the costs 
associated with higher learning. Those who do attend college can emerge 
without the knowledge and skills necessary to compete in the workplace.
    The nation's education system is clearly broken, despite escalating 
intervention by policy makers in Washington over the last 45 years.
    In 1994, the Government Accountability Office conducted a review of 
federal education regulations at the K-12 level and the burden they 
placed on state and local school leaders. The GAO discovered states 
employed 13,400 full-time individuals to implement federal education 
programs. At the time, the federal government imposed 41 percent of the 
administrative burden yet paid just 7 percent of the total cost.
    Although those figures are more than a decade old, the situation 
hasn't improved. In fact, it has gotten worse. Recent reforms at the 
federal level have exacerbated the burdens placed on state and local 
school leaders. States and school districts work 7.8 million hours each 
year collecting and disseminating information required under Title I of 
federal education law. Those hours cost more than $235 million. The 
burden is tremendous, and this is just one of many federal laws 
weighing down our schools.
    Evidence of this costly dynamic was clearly visible during the 
administration's recent experiment with Race to the Top. Instead of 
rewarding states for pursuing innovative solutions to advance student 
achievement, the administration forced states to navigate an overly 
complicated, expensive process and adopt policies that reflect the 
priorities of Washington bureaucrats.
    The administration has also tied assistance for states to improve 
under-performing schools to a one-size-fits-all plan to boost failing 
schools. Instead of instituting the commonsense reforms our nation 
needs, initiatives like this merely extend the status quo.
    The trend of imposing onerous mandates that lead to greater costs 
and paperwork burdens is also happening in higher education. The latest 
rounds of negotiated rulemaking didn't actually clarify the law; rather 
they made it more confusing--forcing schools to redirect critical funds 
to pay the inevitable fines or hire outside counsel to help make sense 
of the new regulations. This Washington-knows-best approach is not 
helping our nation's education system improve; instead, it is 
increasing regulatory burdens on schools and piling more costs on the 
backs of our students.
    We have to ensure taxpayer dollars are spent wisely and 
effectively. But we must also ensure federal mandates aren't roadblocks 
to success in our nation's classrooms. Anyone who has talked to a 
superintendent or teacher understands that federal law can stand in the 
way of innovative solutions and meaningful reform. Reducing the 
regulatory burden placed on our education system makes good fiscal 
sense and good policy sense.
    The House has charged this committee to look at rules and 
regulations within our jurisdiction that may hinder job creation and 
economic growth. Today's hearing is part of that important effort, and 
we will leave no stone unturned as we look to strengthen education and 
the workforce.
    I look forward to our witnesses' testimonies and will now recognize 
the distinguished senior Democratic member, George Miller, for his 
opening remarks.
                                 ______
                                 
    Mr. Miller. Thank you very much, Mr. Chairman. And thank 
you for holding this hearing. I think it is an important 
hearing to discuss the role of the federal government in 
education.
    There is a consensus across the parties in Congress, the 
president and Secretary Duncan that the federal role in 
education needs to be reevaluated. And I think we can all agree 
that any federal involvement in our schools needs to work for 
the best interests of the students.
    I want to start with a story about one of the best days of 
my career, which was right after school performance was 
reported in the local newspapers under the requirements of No 
Child Left Behind. These requirements gave parents an insight 
into what was happening in their local school and being able to 
compare it to the school down the block and across the city and 
across the greater East Bay of the San Francisco area.
    They not only saw their AYP results compared to other 
schools, they saw disaggregated data about children like their 
children, English learners, minority children, poor children. 
But they also saw something else. They saw that their school 
didn't have very many highly qualified teachers, something we 
think is an anachronism today but remember the struggle simply 
to get that definition into this law.
    So they wanted to know why they didn't have them. At that 
time, my state had 60,000 teachers in the classrooms who were 
on the temporary emergency credential. And some of them had 
been on the classroom--on that credential that is good for 1 
year, 5, 6, and 7 years, hiding out in poor minority schools 
where nobody would ask whether or not they were qualified to 
teach or assess what they were doing. That was a great moment 
in my career because those parents now had information and 
started a revolution in that district.
    And I think that that is what we have to understand, that 
there is a purpose to some of this. I join the chairman as he 
talks about regulations that can absolutely drive you crazy. As 
somebody who is involved in the writing of that policy, I want 
to see what happens. And let us not pretend like it is only the 
federal government.
    I once had a contest with Chairman Boehner when he was--
Speaker Boehner now--when he was chairman of this committee, 
with Harold Levy, who was the head of the New York schools at 
that time, about where the real burden came from. He texted all 
of his principals and asked them was it the federal government 
or what. And they said, no, it is your office. It is everything 
you send us every day asking us to fill out, forms and 
requirements. So this is not just a problem at the federal 
government.
    But I also want to talk about what we have learned by 
having these kinds of various types of reporting requirements. 
Prior to the law, to No Child Left Behind, only 11 states had 
access to data that showed gender and ethnicity. Only six 
states had data about the achievement of poor students. Only 
seven states were able to see data about the achievement of 
students based on English proficiency. These students were 
invisible. They were struggling in classrooms across the 
country, but nobody knew it.
    Their parents didn't know it. School officials didn't know 
it. The community didn't know it. And so, nobody was able to 
fix it or to address the needs of these students.
    We passed No Child Left Behind to tackle this very harsh 
reality. We meant what the title said. No longer would it be 
okay to let a child fall behind because we didn't know how they 
were doing in school. Schools had to be accountable for all of 
their students.
    Today's parents, nonprofits, charter schools are all 
responding to the students' needs demonstrated by this newly-
found data. The law implemented a system of reporting and 
accountability to ensure that all students are being held to 
the same high standards and to compare students' achievement 
across schools, districts and states. These new requirements 
allowed us to move the system forward. They allowed us to have 
a conversation today about how to reevaluate the federal role 
without losing sight of what we got right for students, parents 
and communities in NCLB.
    We have all learned what we got right. We also have learned 
about what we got wrong. We learned there is a lot more we need 
to do to better support states and districts to improve the 
system and most importantly, to improve the outcomes for 
students.
    There has to be more coherence in the system. This means 
setting strong goals, maintaining strong and meaningful 
accountability and giving states and districts the support and 
the flexibility to reach those goals and to meet the needs of 
students. We need to fund programs in a way that allows 
districts to maximize the funding to meet the unique needs of 
their students and community. We also need to recognize the 
critical role of data to guide programs and measure the 
performance.
    Strong use of data is what allows the federal government to 
get out of the way while maintaining the integrity of these 
programs. Strong, reliable data lets teachers, parents, 
administrators and communities take responsibility for the 
design and account for outcomes in a performance-based system. 
Similar principles apply to how we approach regulation 
accountability in the higher education arena where we have the 
duty to protect the integrity of billions of dollars in federal 
taxpayer dollars.
    We also know, however, that the outcomes we ask for drive 
practice. We need to be mindful about those outcomes and 
supporting the goals and accountability systems we set.
    Let us remember, too, that we have all of these 
conversations and questions, and throughout these 
conversations, we have to ask the question, what is right and 
what is burdensome in the system. But first, we must ask, what 
is in the best interest of the students. Without that 
framework, we have lost sight of the true purpose.
    I look forward to this hearing. And thank you, again, Mr. 
Chairman, for inviting our witnesses to testify and enlighten 
us on this subject.
    [The statement of Mr. Miller follows:]

  Prepared Statement of Hon. George Miller, Senior Democratic Member, 
                Committee on Education and the Workforce

    Thank you, Mr. Chairman, and thank you for holding this hearing.
    Today we'll hear about the role of the federal government in 
education.
    There is a consensus across both parties in Congress, the President 
and Secretary Duncan, that the federal role in education needs to be 
re-evaluated.
    And I think we all agree that any federal involvement in our 
schools needs to work in the best interest of our students.
    I want to start with a story about one of the best days in my 
career which was right after school performance was reported in my 
district, as required by No Child Left Behind.
    These requirements helped give parents insight into what was 
happening in their children's schools. After a newspaper first 
published the AYP results about my district, parents called for a 
community meeting, not because they were upset about the scores, 
instead because they were infuriated they hadn't known this information 
before.
    That moment highlighted what we got right in No Child Left Behind--
real information for parents about the state of their schools.
    Before we passed NCLB ten years ago, accountability in education 
was nearly non-existent and, worse, student performance was masked.
    Prior to the law, only 11 states had access to data that showed 
gender or ethnicity.
    Only 6 states had data about the achievement of poor students.
    Only 7 states were able to see data about the achievement of 
students based on their English proficiency.
    These students were invisible. They were struggling in classrooms 
across the country, and nobody knew. So nobody did anything to fix it.
    We passed No Child Left Behind to tackle this harsh reality, and we 
meant what the title said.
    No longer would it be okay to let a child fall behind because we 
didn't know how they were doing in school.
    Schools had to be accountable for ALL their students.
    Today, parents, non-profits and charter schools are all responding 
to students' needs demonstrated by this newly found data.
    The law implemented a system of reporting and accountability to 
ensure that all students were being held to the same high standards and 
to compare students' achievement across schools, districts and states.
    These new requirements allowed us to move the system forward.
    They allowed us to have these conversations today about how to re-
evaluate the federal role without losing site of what we got right for 
students, parents and communities in NCLB.
    While we have learned what we got right, we also have learned a lot 
about what we got wrong.
    We learned there is a lot more we need to do to better support 
states and districts to improve the system, and most importantly, 
improve outcomes for students.
    There has to be more coherence in the system--that means setting 
strong goals, maintaining strong and meaningful accountability and 
giving states and districts the support and flexibility to reach those 
goals and meet the needs of students.
    We need to fund programs in a way that allows districts to maximize 
funding and meet the unique needs of their students and community.
    We also need to recognize the critical role of data to guide 
programs and measure performance.
    Strong use of data is what allows the federal government to get out 
of the way while maintaining the integrity of programs.
    It lets teachers, parents, administrators and the community to take 
responsibility for the design and accountability for outcomes in a 
performance based system.
    Similar principles apply to how we approach regulation and 
accountability in the higher education arena, where we have a duty to 
protect the integrity of billions of dollars in federal taxpayer 
dollars.
    We also know, however, that the outcomes we ask for drive practice. 
We need to be mindful that those outcomes are supporting the goals and 
accountability systems we set.
    Let's remember, too, that as we have all of these conversations and 
question what is right and what is burdensome in the system, that we 
always first ask ourselves what is in the best interest of students.
    Without that framework, we have lost sight of our true purpose.
    I look forward to hearing from our witnesses about what's happening 
in school districts and institutions of higher education and what we 
can do to ensure our students succeed.
                                 ______
                                 
    Chairman Kline. I thank the gentleman.
    Pursuant to Committee Rule 7-C, all committee members will 
be permitted to submit written statements to be included in the 
permanent hearing record. And without objection, the hearing 
record will remain open for 14 days to allow statements, 
questions for the record, and other extraneous material 
referenced during the hearing to be submitted in the official 
hearing record.
    It is now my pleasure to introduce our distinguished panel 
of witnesses. Dr. Ed Hatrick is in his 20th year of service as 
the superintendent of Loudoun County Public Schools. Over his 
44-year career in Loudoun County, he has been a high school 
English teacher, high school principal, director of special 
education, director of instruction, supervisor of guidance and 
foreign languages, and assistant superintendent for pupil 
services. Dr. Hatrick is also the president of the American 
Association of School Administrators and vice president of the 
Urban Superintendents Association of America. It is a shame we 
couldn't get somebody with some experience.
    Welcome.
    Ms. Kati Haycock serves as president of the Education 
Trust, a national civil rights advocacy organization that 
promotes high academic achievement of all students at all 
levels. Before joining the organization, she served as 
executive vice president of the Children's Defense Fund and 
founded and served as president of the Achievement Council.
    Welcome.
    Mr. Gene Wilhoit serves as the executive director of the 
council of Chief State School Officers, a trade association 
representing the leaders of the state departments of education. 
He began his career as a social studies teacher in Ohio and 
Indiana and served as a program director in the Indiana 
Department of Education, a district administrator in West 
Virginia, and a special assistant at the U.S. Department of 
Education before becoming executive director of the National 
Association of State Boards of Education. In those positions, 
he shepherded finance reform, designed and implemented 
assessment and accountability systems, and reorganized state 
agencies to focus on service and support.
    Mr. Christopher Nelson serves as the president of St. 
John's College in Annapolis, Maryland. He is a member of the 
Maryland Independent College and University Association and has 
served as chairman of its board of directors. He is past chair 
and a founding member of the Annapolis Group, a consortium of 
over 120 of the nation's leading liberal arts colleges and has 
served on the National Association of Independent Colleges and 
Universities' Board of Directors.
    A reminder on the light system--there is a little box in 
front of you. When you start your testimony, a green light will 
come on. After 4 minutes, it will be a yellow light. And after 
5 minutes, a red light will come on. And that will be an 
indication that you should look for a way to wrap up your 
testimony or your response.
    I will assure you all that it is not my intention to drop 
the gavel in the middle of a sentence or a paragraph. We would 
like you to complete your thought.
    However, once again, I will remind my colleagues that when 
the red--when the light turns red for you, the gavel is much 
more likely to come down to be respectful of everybody's time 
here.
    We will just go right down the line and start with you, Dr. 
Hatrick. You are recognized.

STATEMENT OF DR. EDGAR HATRICK, SUPERINTENDENT, LOUDOUN COUNTY 
                         PUBLIC SCHOOLS

    Mr. Hatrick. Thank you, Chairman Kline, Ranking Member 
Miller and members of the committee. Thank you for inviting me 
to testify today regarding the impact of federal regulations 
and reporting from a public school administrator's perspective. 
My name is Edgar Hatrick. And I am the superintendent of 
Loudoun County Public Schools. And I also serve as president of 
the American Association of School Administrators.
    Loudoun is a large, growing school district of more than 
63,000 students located in Virginia outside of Washington, D.C. 
I speak to you today from my 44 years of experience as an 
educator, which includes 20 years as superintendent. I am here 
to talk to you about the impact of federal regulations and 
reporting requirements on school districts.
    Loudoun County Public Schools, or LCPS, like school 
districts across the country, complies with all regulations and 
reporting requirements of our local school board, our state 
education agency and federal agencies. It is important to note 
that, while Loudoun County Public Schools has resources such as 
data analysts, program analysts, and a research office with 
support staff, 70 percent of school districts in the United 
States have an enrollment of 2,500 students or less with very 
limited staff, but with the same regulations and reporting 
requirements. Fewer resources do not excuse compliance from 
federal reporting.
    Federal regulations are necessary for program integrity and 
to implement programs consistent with congressional intent. 
However, when compliance with reporting requirements becomes 
the focus of implementation, it sends a powerful message that 
the process is more important than the product. In other words, 
the pressure to comply makes it seem like adherence to data 
collection and reporting are more important than our mission of 
teaching and learning.
    Specific regulations, data collection, and reporting vary 
greatly and are dependent on program, grant, and agency 
requests. However, there is overlap, resulting in redundancy of 
reporting and resources being diverted from the mission of 
teaching and learning.
    I would like to share with you an example. The Office of 
Civil Rights, OCR, reporting requirement comes with no funding 
and ignores the availability of this information from state 
education agencies. The most recent OCR data collection was 
completed this past December and required aggregating and 
disaggregating more than 12 categories of data with more than 
144 fields for each of our 50 elementary schools and 263 fields 
of data for each of our 24 secondary schools for a total of 
13,994 data elements.
    And this was just for one school district out of the 13,924 
school districts in America. For LCPS, this required 532 hours 
of staff time, at an estimated cost of $25,370, which 
translates into diverting 82 instructional days away from 
students.
    The vast majority of the reporting requirements from OCR 
are seeking data already transmitted to the Virginia Department 
of Education, thus causing duplicate effort. To inform policy, 
federal regulations and reporting requirements need to align 
with the mission of public education to serve students. From my 
vantage point, it appears that some federal reporting 
requirements are not connected to federal programs or funding. 
In fact, there is often confusion about whether reporting 
elements are required by the federal government or by our 
states.
    Another reporting area that has limited funding tied to it 
is IDEA. Federal funding for IDEA provides 9 percent of the 
total cost of serving the 6,719 students with disabilities in 
Loudoun County. Local school districts collect and report data 
to the state that is used in the state performance report as a 
part of the federal monitoring of IDEA. States, including 
Virginia, submit data to USED on the outcomes for students with 
disabilities as a part of state performance report. Currently, 
Virginia collects data for 20 indicators. And Loudoun County 
Public Schools provides the data on an annual basis.
    I would like to describe one of the 20 indicators on which 
we have to report. Indicator seven, titled, ``Improving 
Cognitive and Social Outcomes for Preschool Students with 
Disabilities,'' mandates that a team of professionals must 
provide developmental information on the entry status of a 
child into special education. Each report takes approximately 
30 minutes to complete per student.
    It requires input from three professionals: a psychologist, 
an eligibility coordinator and an early childhood special 
education teacher. Last year, we reported on 409 preschool 
students, which took 613 hours at an estimated cost of $25,000. 
In other words, 94 instructional days, again, were diverted 
from instructional support to students in the classroom. And 
there are 19 other indicators that also are complex and costly.
    Careful thought about what information is really needed 
versus what is nice to have and use occasionally or not at all 
ought to be required before school districts are required to 
gather and report information. I would rather spend our 
precious education dollars on service because the services are 
mandated to the full extent of the IEP. If compliance is 
important, then the service mandate must be adjusted or funding 
for IDEA increased.
    Loudoun is a growing school district. And the number of 
hours for the collection of these data will continue to 
increase while resources continue to shrink. Again, I realize 
the importance and value of federal regulations and compliance 
with reporting requirements. However, when all requirements are 
treated as equally important, even though not all requirements 
are equally important, it distracts staff from activities with 
a high payoff for students.
    In conclusion, as you consider the policy implications, I 
pose these propositions. First, federal agencies must better 
coordinate, align, and limit reporting requirements to be less 
onerous, redundant and/or duplicative. Second, reporting on 
implementation of federal regulations should be reduced and 
more closely linked to the funding provided.
    And at the end of the day, it must be clear that the data 
were actually needed and how the data were used so the 
importance of the data can be judged by Congress and those of 
us in the field. Policies and regulations should be written so 
that they support the mission of teaching and learning and 
limit or eliminate the impression or actuality that the process 
of filling in the compliance reports and other regulatory 
reports is more important than improving educational outcome 
for students. Thank you.
    [The statement of Mr. Hatrick follows:]

    Prepared Statement of Dr. Edgar B. Hatrick, III, Superintendent,
                     Loudoun County Public Schools

    Chairman Kline, Ranking Member Miller, and Members of the 
Committee: Thank you for inviting me to testify today regarding the 
impact of federal regulations and reporting from a public school 
administrator's perspective.
    My name is Edgar Hatrick and I am the Superintendent of Loudoun 
County Public Schools and also serve as the President of the American 
Association of School Administrators. Loudoun is a large, growing 
school district of more than 63,000 students located in Virginia 
outside of Washington DC. I speak to you from my 45 years of experience 
as an educator, which includes 20 years as a superintendent.
    I'm here to talk to you about the impact of federal regulations and 
reporting requirements on school districts. Loudoun County Public 
Schools (LCPS), like school districts across the country, complies with 
all regulations and reporting requirements of our local school board, 
our state education agency (SEA) and federal agencies. It is important 
to note that while Loudoun County Public Schools has resources such as 
data analysts, program analysts, and a research office with support 
staff, 70% school districts in the United States have an enrollment of 
2,500 or less with very limited staff but with the same regulations and 
reporting requirements. Fewer resources do not excuse compliance from 
federal reporting.
    Federal regulations are necessary for program integrity and to 
implement programs consistent with Congressional intent. However, when 
compliance with reporting requirements becomes the focus of 
implementation it sends a powerful message that the process is more 
important than the product. In other words, the pressure to comply 
makes it seem like adherence to data collection and reporting are more 
important than our mission of teaching and learning.
    Specific regulations, data collection, and reporting vary greatly 
and are dependent on program, grant, and agency requests. However, 
there is overlap, resulting in redundancy of reporting and resources 
being diverted from the mission of teaching and learning.
    I'd like to share with you an example. The Office of Civil Rights 
(OCR) reporting requirement comes with no funding and ignores the 
availability of this information from State Education Agencies. The 
most recent OCR data collection was completed this past December and 
required aggregating and disaggregating more than twelve categories of 
data, with more than 144 fields for each of our 50 elementary schools 
and 263 fields of data for each of our 24 secondary schools, for a 
total of 13,944 data elements. And this was just for one school 
district out of the 13,924 school districts in America. For LCPS, this 
required 532 hours of staff time at an estimated cost of $25,370, which 
translates into diverting 82 instructional days away from students
    The vast majority of the reporting requirements from OCR are 
seeking data already transmitted to the Virginia Department of 
Education thus causing duplicate effort.
    To inform policy, federal regulations and reporting requirements 
need to align with the mission of public education to serve students. 
From my vantage point, it appears that some federal reporting 
requirements are not connected to federal programs or funding. In fact 
there is often confusion about whether reporting elements are required 
by the federal government or by our states.
    Another reporting area that has limited funding tied to it is IDEA. 
Federal funding for IDEA provides 9% of the total cost of serving the 
6,719 students with disabilities in Loudoun.
    Local school districts collect and report data to the State that is 
used in the State Performance Report as a part of the federal 
monitoring of IDEA. States, including Virginia, submit data to USED on 
the outcomes for students with disabilities as a part of the State 
Performance Report. Currently Virginia collects data for twenty 
indicators, and Loudoun County Public Schools provides the data on an 
annual basis. I'd like to describe a one of the twenty indicators on 
which we have to report.
    Indicator 7, ``Improving Cognitive and Social Outcomes for Pre-
school Students with Disabilities,'' mandates that a team of 
professionals must provide developmental information on the entry 
status of a child into special education. Each report takes 
approximately 30 minutes to complete per student. It requires input 
from three professionals: a Psychologist, an Eligibility Coordinator, 
and an Early Childhood Special Education teacher. Last year we reported 
on 409 pre-school students, which took 613 hours at an estimated cost 
of $25,000. In other words, 94 instructional days again were diverted 
from instructional support to students in the classroom. And there are 
19 other indicators that are as or more complex and costly. Careful 
thought about what information is really needed versus what is nice to 
have and use occasionally or not at all ought to be required before 
school districts are required to gather and report information. I would 
rather spend on services because the services are mandated to the full 
extent of the IEP. If compliance is important then the service mandate 
must be adjusted or funding for IDEA increased.
    Loudoun is a growing school district and the number of hours for 
the collection of these data will continue to increase, while resources 
continue to shrink.
    Again, I realize the importance and value of federal regulations 
and compliance with reporting requirements. However, when all 
requirements are treated as equally important, even though not all 
requirements are equally important, it distracts staff from activities 
with a high payoff for students.
    In conclusion, as you consider policy implications, I pose these 
propositions:
    <bullet> Federal agencies must better coordinate, align and limit 
reporting requirements to be less onerous, redundant and/or 
duplicative.
    <bullet> Reporting on implementation of federal regulations should 
be reduced and more closely linked to the funding provided. And at the 
end of the day it must be clear that the data were actually and how the 
data were used so the importance of the data can be judged by Congress 
and those of us in the field. Policies and regulations should be 
written so that they support the mission of teaching and learning and 
limit or eliminate the impression or actuality that the process of 
filling in the compliance reports and other regulatory reports is more 
important that improving educational outcomes for students.
                                 ______
                                 
    Chairman Kline. Thank you.
    Ms. Haycock?

             STATEMENT OF KATI HAYCOCK, PRESIDENT,
                      THE EDUCATION TRUST

    Ms. Haycock. Chairman Kline, Ranking Member Miller, and 
members of the committee, my name is Kati Haycock. I am 
president of the Education Trust here in Washington. And I want 
to thank you for the opportunity to testify before you this 
morning on the role of the federal government in education and 
its impact on states, districts, and schools. And I want to 
apologize in advance for what is quite obviously a voice that 
is not fully recovered from a bout of laryngitis last week.
    You know, in his address to CPAC last month, Indiana 
Governor Mitch Daniels used language that, I think, aptly 
captures the historic role of the federal government in 
education. ``Our first thought,'' he said, ``is always for 
those on life's first rung and how we might help them increase 
their chances of climbing.''
    Indeed, it is important to remember that from the very 
first iteration of the Elementary and Secondary Education Act 
during the presidency of Lyndon Johnson through the more recent 
presidencies of George W. Bush and Barack Obama, the federal 
role--the role of federal support for education has been very 
clear: to provide schools that serve concentrations of low-
income children, of ethnic and language minorities, and 
students with disabilities with the extra support that they 
need to help move these youngsters up from the bottom rung of 
life's ladder up higher.
    But while the focus of that investment has always been 
clear, it is important to acknowledge its implementation has 
been far from perfect. And among the most important lessons we 
have learned is that excessive controls on how federal dollars 
are spent at the state and local level are often 
counterproductive.
    Now, in the early years of ESEA, the green eye shades guys 
who monitored the use of federal funds had essentially one 
operative question when they visited state and local school 
districts. What they said to us is prove to us that the dollars 
that we gave you are being spent only on the children for whom 
they were intended. Never did they ask the more important 
question--and that is, are these children learning more.
    Beginning with the 1994 reauthorization and continuing in 
2001, Congress actually began a very important transition from 
an emphasis on bureaucratic monitoring to an emphasis on 
improved results. That started by ensuring that states actually 
had standards and could monitor the progress of students.
    But essentially what Congress did is propose a trade. You 
show us improved results, especially for the children who are 
under-achieving, and we will stop telling you how to spend the 
money.
    Now, the truth of the matter is that it is very sad that 
there are many educators who actually would argue that the 
focus on improving results is, in and of itself, burdensome. 
Those educators would prefer to go back to the days when we 
could just sweep the under-performance of certain groups of 
kids under the rug or where we at least weren't obligated to 
actually improve their performance.
    Here, however, it is vitally important that you stand with 
the 103rd Congress and the 107th Congress and with the children 
themselves. Tell them we are not going back to the time when 
results didn't matter. In fact, if there is one thing that I 
think both critics and supporters of NCLB agree, it is that the 
law's focus on the under-performance of certain groups of 
students was dead on, hugely important.
    Of course, that doesn't mean you have to do it the same way 
next time. But the important thing is that both children and 
taxpayers themselves deserve a focus on improved results. This 
is not a time for us to slow down the pace of education 
improvement.
    There are also some who would argue that the law's focus on 
public reporting is, in and of itself, burdensome. Here, 
though, we hope you will stand for the right of parents to 
honest reporting on how their children are performing and on 
school and teacher quality and for the right of taxpayers to 
actual honest reporting on whether their investments are 
actually making an impact on children.
    It is, however, important to acknowledge that in the shift 
to--from an emphasis on monitoring to an emphasis on results, 
the federal government has not always lived up to its part of 
the bargain. And I want to give you three quick examples of 
that because these are the burdens, often horrendous ones, to 
which Congress should focus its attention during 
reauthorization, sheering off unnecessary burdens and producing 
a thin law with a clear focus on improved results.
    One of those is the provisions of the school improvement 
requirements, which, by some counts, require schools to produce 
plans that have no fewer than 17 elements. But here is what 
happens. Those 17 requirements go to the states. The states end 
up turning them into 50. That turns into a 100-page plan. And 
school principals will tell you they end up spending 7 or 8 12-
hour days filling out the plan, only to have to do it again 2 
weeks later when their teachers return.
    That is the kind of requirement you could eliminate in the 
next law. The same could be said of the law's supplement, not 
supplant requirements, which served an important purpose, but 
end up being so difficult to monitor that you end up getting 
the green eye shades folks involved again. And that result is 
schools don't have the flexibility that you intended to 
provide.
    And one final example of an unnecessary burden, certainly, 
is in the depth of the detail required on what happens when 
schools don't meet their targets. Most of those are so 
difficult to administer, require so many plans and so much 
coordination that in the end, there are very few benefits to 
kids.
    Requirements like these are one of the reasons why the 
current law is more than 1,000 pages long and why it has an 
additional 300 pages of regulation. And surely, if you were 
extraordinarily disciplined in the coming reauthorization, you 
could produce, again, a thin law that would focus entirely on 
what is important, that is results, rather than what is not.
    And I think, just in conclusion, there is one practical 
test that you could use in fashioning that law, asking one 
important question. And that is, does the proposed provision 
provide a powerful level to educators in improving achievement, 
especially among the children who are most likely to be left 
behind. If the answer to that is yes, the provision goes in. If 
the answer to that is no, it does not. Thank you very much.
    [The statement of Ms. Haycock follows:]

   Prepared Statement of Kati Haycock, President, the Education Trust

    Chairman Kline, Ranking Member Miller, and Members of the 
Committee, thank you for the opportunity to testify before you this 
morning on the role of the federal government in education and its 
impact on states, districts, and schools.
    In his address to the Conservative Political Action Conference 
(CPAC) last month, Indiana Governor Mitch Daniels aptly captured the 
historic federal role in education when he said, ``Our first thought is 
always for those on life's first rung, and how we might increase their 
chances of climbing.'' Indeed, from the first iteration of the 
Elementary and Secondary Education Act (ESEA) during the presidency of 
Lyndon Johnson, through the more recent presidencies of George W. Bush 
and Barack Obama, the focus of federal support for education has been 
clear: to provide schools serving concentrations of low-income 
students, ethnic and language minorities, and students with 
disabilities with the extra support they need to help move these 
youngsters up the American economic ladder and the American social 
ladder, more generally.
    But, while that focus has been clear, its implementation has been 
far from perfect, and we have learned a lot of lessons along the way 
about how the federal role should work. Among the most important: 
Excessive controls on how federal dollars are spent at the state and 
local level are counterproductive.
    In the early years, the green eye-shades monitoring federal funds 
had one operative litmus test for states and localities: ``Prove to us 
that the dollars we gave you are being spent only on the children for 
whom they were intended.'' Never did they ask the more important 
question: ``Are the children learning more as a result of our 
support?'' Under this structure, the feds knew very specifically where 
dollars were going, but they had no idea what those dollars were (or 
were not) doing.
    Beginning with the 1994 reauthorization and continuing with the 
2001 reauthorization, Congress began an important transition: from an 
emphasis on bureaucratic monitoring to an emphasis on improved results. 
That started by ensuring that states had standards toward which all 
students were moving and goals for measuring their progress. 
Essentially, Congress proposed a trade: You show us improved results, 
especially for underachieving children, and we will stop telling you 
exactly how to spend the money we gave you.
    Sadly, there are many educators and others who would argue that the 
focus on results is, in and of itself, burdensome. They would prefer to 
go back to the days of sweeping the underperformance of some groups of 
children under the rug of school-wide averages--or, at the very least, 
to be free of the obligation to actually improve their achievement. For 
them, it is enough to have ``served'' them, even if they remain on the 
very bottom rung.
    Here, however, it is vitally important that you stand with the 
103th Congress and the 107th Congress--and with the children 
themselves. Tell them we are not going to turn back the clock to a time 
when results didn't matter. In fact, if there is one thing on which 
both critics and supporters of NCLB agree, it is that the law's focus 
on the underperformance of groups of children was dead-on. Of course, 
your focus on results for all children doesn't have to be done in 
exactly the same way as No Child Left Behind.
    Looking at just a snapshot of achievement without recognizing 
growth, for example, was far from perfect. But both taxpayers and 
children deserve a focus on improved results, and the country needs us 
to pick up the pace of improvement, not slow it down.
    There are some, too, who would argue that federal requirements for 
reporting to parents and the public are burdens that districts should 
not have to bear. Here again, though, we hope you will stand for the 
right of parents to honest reporting on school and teacher quality and 
for the right of taxpayers to honest reporting on the impact of their 
dollars.
    However, it is important to acknowledge that in the shift to an 
emphasis on results, the federal government has not lived up to its 
part of the bargain. These are the burdens--often horrendous ones, I 
might add--to which Congress should turn its attentions during 
reauthorization, sheering off unnecessary regulatory burden and 
producing a ``thin'' law with a clear focus on improved results. Let me 
provide a few examples.
    a. The school improvement provisions of the law, for example, 
require the development of a plan that, by some counts, contains no 
fewer than 17 elements, most of which are simply pulled from a grab bag 
of activities important to various interest groups. I saw the effect of 
this in a recent visit to a small school district in the Midwest. 
Here's what happens: The federal government demands a plan with 17 
elements, and sends that requirement to the state. The State Department 
of Education, in its infinite wisdom, turns that 17 into 55, formats 
them within a 100-page plan, and demands the plan BEFORE school starts. 
For the principals of these schools, the burden looks like this: six 
12-hour days to produce a plan, which--to be a real plan--has to be 
redone two weeks later once their teachers return and can provide 
input.
    b. The same can be said of the law's supplement, not supplant 
requirements. Though designed to respond to a real problem--that, 
instead of using federal funds to increase supports for struggling 
students, as intended, states sometimes simply replace state dollars 
with federal dollars--these provisions cannot be adequately monitored 
without returning power to the green-eyeshade folks. The net result: 
Schools do not get the flexibility over their federal dollars that you 
aimed to provide.
    c. And here's one final example of unnecessary burden: Schools that 
fail to make annual yearly progress face a number of consequences, 
including offering choice and supplemental services, like tutoring, to 
students. Doing this requires district approval and coordination, 
review and selection of providers, plans--and, of course, meetings with 
parents and written notice to them.
    In short, it's a lot of work for a school. But, does it result it 
any real benefit to kids? No, because test results don't come back 
until the end of the year and parents have no idea about the 
availability of these options until after the deadline for opting into 
them has passed.
    Requirements like these are one of the reasons why the current law 
is more than 1,000 pages long, and why the regulations issued under it 
add another approximately 300 pages. Surely, if you were 
extraordinarily disciplined, you could design a thin law that focused 
energies on what is important, rather than what is not.
    Let me conclude by proposing a practical test for determining 
what--beyond accountability for results and honest public reporting--
should go into that thin law: Does the proposed provision provide a 
powerful lever to help local educators do what it takes to raise 
achievement, especially among the children most often left behind in 
state improvement efforts? If the answer is yes, the provision goes in.
    If the answer is no, it does not.
    Thank you.
                                 ______
                                 
    Chairman Kline. Thank you.
    Mr. Wilhoit?

STATEMENT OF GENE WILHOIT, EXECUTIVE DIRECTOR, COUNCIL OF CHIEF 
                     STATE SCHOOL OFFICERS

    Mr. Wilhoit. Members of the committee, it is a pleasure to 
be with you today to talk about eliminating unnecessary 
requirements, and I think equally important, a parallel 
conversation about how the federal government can use its role 
to leverage continued improvement in public education. We are 
at this point, as states, realizing that this is not a federal 
issue alone, that states need to be as diligent as the federal 
government in terms of redefining the requirements and the 
processes that are engaged in accountability measures.
    But we do understand, clearly, that we are not asking for 
no regulation, no reporting at all. In fact, this is not a 
matter of whether we collect or not collect data. It is about 
the thoughtful process. And it is about how we can support 
ourselves in terms of a strategically driven process of 
collecting information. Because we will need information to 
assure that we are accountable for the funds that you are 
providing to public education, we are also engaged in a process 
of reflective thinking now that we have not been engaged 
historically. And we need that information to drive educational 
improvement.
    So you have my written testimony, but I would like to just 
provide five areas where I think you could provide some 
leadership as we move forward in this area. First, I think 
there needs to be a much more centralized process for driving 
data collection across the states.
    From what we can gather, the historic process that has been 
put in place and that is perpetuated is that these data 
collection efforts have been driven from various program 
offices, not from a centralized source within the department. 
So I think we could dramatically increase our capacity if we 
could bring that together in a single place within the federal 
agency. And from that place, we could then begin to organize, 
make some very serious decisions about what is necessary and 
what is not, make some central decisions about how we--why the 
information is important and why it is not.
    Secondly, I think you could remove some redundancies and 
find some major improvement very quickly in the process. I 
reference a report that we commissioned where we looked at 625 
different data reports that are requested through the states 
that filters down to the local community. In those, we found 
241 discrete data elements that were repeated or requested more 
than once in a single area.
    I referenced in my testimony this issue of data collection 
in students with limited English abilities. We found 73 
different requests in the reporting requirements to the states 
and then filtering down to the locals, again, for the same 
information. Those redundancies don't appear to be particularly 
characteristic of any one program. They run across all the 
federal program areas. There needs to be a thorough process of 
removing those redundancies.
    Third, I think it is important that you hold steady on some 
of these requirements. They are changing dramatically. An 
example that I would use here is that in the last 
reauthorization of IDEA, there was--there were 20 new reports 
added to the reporting to the states and then down the locals 
during the last 6 years. Almost all of those have been revised 
in terms of annual updates and changes in the process.
    That creates an additional burden on folks. And it also 
removes the sort of ability to track change over time when you 
have different kinds of reporting requirements coming in from 
states, not to mention the diversion of effort at the local 
level.
    Fourth, I think you could, in your relationship with the 
department, provide for a much more dynamic process than we 
have right now for updating regulations. The intent of current 
federal law, No Child Left Behind, was lofty in many areas. We 
added tremendous restrictions in the regulations process.
    But what has caused major problems over the last few years 
is that those regulations, which were frozen at that time have 
not had a vehicle for improvement, other than a waiver process, 
which, is again, within itself, requires a tremendous amount of 
reporting. It becomes a process of persuading the feds that 
this is important to do. And it has to fit within, again, 
another set of regulatory guidelines. It is a difficult 
process.
    If there were a process to constantly review those 
regulations and build from knowledge that is being accumulated 
and updated, we wouldn't have had a lot of the pressure points 
we have right now on implementation. A couple of examples that 
I use in here are around the issue of freezing the 
accountability around results and not accounting for growth in 
this process. There was a good reason for that when the law was 
established.
    States didn't have the capacity to put growth models in 
place. They have them now. They are still, with that new 
information, unable to move forward and to redesign those 
accountability systems because of the regulations.
    And then, finally, a suggestion I would give is that you 
need to tie regulations to the oversight function. They are 
carried out. We have multiple agencies overseeing the 
implementation at the state and local level. They all have 
different criteria for overseeing and adhering to the--making 
sure we are adhering to the regulations. And they all report in 
different ways and have different sorts of oversight teams.
    So I appreciate the opportunity to raise these five issues. 
I hope they are helpful as you think about the process. Just to 
restate, the states are committed to doing what we can in 
partnership with you. I think you have a good partner in the 
department in some areas that are--the new secretary is willing 
and anxious to make some of these changes with us.
    [The statement of Mr. Wilhoit follows:]

        Prepared Statement of Gene Wilhoit, Executive Director,
                 Council of Chief State School Officers

    Good morning Chairman Kline, Ranking Member Miller, and Members of 
the Committee. My name is Gene Wilhoit and I am the Executive Director 
of the Council of Chief State School Officers (CCSSO). CCSSO represents 
the public officials who head departments of elementary and secondary 
education in all 50 states, the District of Columbia, the Department of 
Defense Education ctivity, the Bureau of Indian Education and five U.S. 
extra-state jurisdictions.
    Thank you for inviting me to speak with you about federal 
regulations that provide minimal or no value to students and schools, 
but represent significant state and local burdens. Eliminating dated or 
unnecessary requirements, while also rethinking the appropriate federal 
role in education is essential to unleashing innovations needed to 
improve American education. This Congress has an important opportunity 
to further states' work by streamlining regulations and creating policy 
conditions conducive to local leaders' success. We look forward to 
working with this Congress and the Administration to create a federal 
role that supports innovation, while still holding states accountable 
for all children. In the meantime, states intend to continue leading 
ground-breaking reforms designed to help all students meet college and 
career ready standards. Federal education laws and regulations can 
support states by removing arriers to innovation and resisting the 
temptation to codify a single right answer for the nation's more than 
90,000 public schools.
    The basis for some federal education policies, and the laws and 
regulations that embody them, no longer fit the present reform context, 
because of changing conditions at the state, local and school level. 
The dynamic environment of education reform necessarily means that some 
regulations outlive their purpose and of course other regulations are 
not sensible on the first day they are issued. We are already engaging 
with the Department of Education on many of these issues and look 
forward to continuing positive dialogue between Congress and the 
Administration. My objective today is to highlight several examples of 
regulations and requirements that do not currently support sound 
education reform or directly encourage improved tudent achievement. 
This list is not exhaustive, but does illustrate the need o update the 
Department of Education's regulatory framework.

Federal Data Collection and Reporting Regulations
    Federal education laws and related regulations require the 
collection and reporting of thousands of data points--most collected at 
the school level. Data are collected by the Department of Education to 
support valuable research, oversight and accountability and to 
otherwise guide and inform policy decisions at all levels of 
government. States strongly agree with the need to strategically 
collect critical data to support accountability and inform policy 
decisions, but strongly oppose data collection for the sake of data 
collection. In collecting data, priority should be given to supporting 
mproved student achievement and other data collections need to be 
thoroughly screened to determine if they are truly needed.
    Federal education data collection is often redundant and generally 
lacks a coherent and comprehensive vision. The absence of a unified 
data strategy arose out of inconsistencies and redundancies in federal 
statue, but also multiple offices within the Department of Education 
collecting the same data. The Department does not have a central 
process for ensuring that the same data (or very similar data) is not 
being collected by multiple offices. These problems are compounded by 
data requests not clearly linked to federal statutory objectives, 
collection requirements that sometimes change year-by-year (limiting 
decision-makers' ability to compare data over time), and lack of timely 
notice about new reporting requirements. It is oteworthy that the 
Department of Education is aware of these issues and as been working 
with CCSSO to identify possible solutions.
    To be clear though, we are still working with the Department to 
further explore and better define this challenge. A CCSSO commissioned 
preliminary data collection analysis detailed 625 separate federal data 
reports and within them 241 discrete data elements that were reported 
more than once. For example, Student Limited English Proficiency Status 
is required in 73 different files. Moreover, we discovered that the 
same data element is often collected up to 3 different times a year. 
Since states are required to report data in aggregate table formats 
there is no simple way to report an individual piece of data. Thus each 
time a data element is collected or recollected there is a cost 
associated with valuable staff time at the school, district and state 
level that is expended to obtain, verify and then report these figures; 
cost and time that could be better spent focused on supporting efforts 
to improve low-performing schools or other important reas. We are in 
the early stages of this data burden analysis and will keep the 
committee apprised as we gather further information.
    The data collection problem is compounded by redundant requirements 
and changing obligations year-by-year. For example, after the 2004 
reauthorization of the Individuals with Disabilities Education Act, the 
Department of Education issued regulations requiring the collection of 
data around 20 additional indicators. The Department subsequently 
reworked or changed nearly all of these requirements, some of them more 
than once, over the past six years. This moving target unnecessarily 
burdens states and localities and makes it very difficult to establish 
solid baselines or compare ny of the data from year to year. 
Furthermore, the data elements collected for three of the indicators 
are already collected as part of EDFacts.
    As a result of the existing burdens, states have spent so much on 
their current data collections that they have no additional resources 
to support eaningful research or add additional elements on the link to 
improved tudent achievement.

Accountability and Adequate Yearly Progress Regulations
    In preparing for today's hearing, our members highlighted a range 
of regulatory requirements linked to outdated statutory provisions 
currently under review by Congress. While the statutes themselves are 
not the intended focus of today's hearing, it is difficult for some 
important areas to ogically separate statute from regulation, so I want 
to highlight several such examples raised by our members.
    In many respects, federal regulations are responding to outdated 
statutory requirements. This is the case with federal regulations that 
prescribe a one-size-fits-all accountability system that over-
identifies schools as failing, mandates rigid improvement actions, and 
misallocates scarce resources that should be focused on states' 
persistently lowest performing schools. For example, the current 
Adequate Yearly Progress system reflected in statute and regulation 
does not allow most states to create accountability systems that give 
schools credit for student improvement over time. Under an existing 
pilot program, the Department of Education allows a small number of 
states to use growth models for this purpose, but federal requirements 
forbid the majority of states from using such systems for 
accountability determinations. This dated requirement was created 
before states developed the longitudinal data systems needed to track 
student progress over time-which in turn allows for the creation of 
evaluation systems to measure educator effectiveness and support 
instructional improvements. States capable of implementing a fair and 
reliable growth model should be empowered to do so integrating them 
into their accountability systems. These statutory and regulatory 
requirements have inhibited states from implementing innovative 
assessment and accountability models, including the use of high quality 
adaptive assessments that can better meet the needs of individual 
students. The current rigid accountability system also leads to a 
serious misallocation of resources, because state school turn-around 
funding and efforts are targeted across a larger number of schools 
(many of which are relatively high performing), rather than being 
targeted to the persistently lowest erforming schools that need the 
most assistance. This misallocation irectly impacts the students 
requiring the most support.

Highly Qualified Teacher (HQT) Regulations
    As with accountability above, federal HQT requirements and 
regulations have not kept pace with practice. The regulations have 
become a strain on states' abilities to move toward models of teacher 
effectiveness tied to student achievement, and the regulations have 
also become increasingly complex to address implementation realities, 
particularly in rural areas. Current requirements overemphasize the 
value of credentials as an indicator of a teacher's ability to succeed 
in the classroom, fail to fully address the unique needs of small and 
rural communities, and burden states' abilities to dedicate staff and 
resources to developing educator evaluation systems focused on 
outcomes, not inputs. Requirements do not withstand examination of 
student achievement results in the classrooms of some HQT teachers and 
the regulatory framework diverts time and attention from the need to 
ensure that all students are taught by an effective teacher. Leading 
states are now exploring the implementation of next generation educator 
evaluation systems, which will substantially rely on tudent achievement 
results to measure an educator's performance, even as they continue to 
help their schools satisfy HQT requirements.
    Despite the national transition to output based effectiveness 
models the Department of Education continues to rigidly enforce the 
agency's HQT regulations, which have grown increasingly more complex as 
the Department struggled to create workable regulatory exceptions 
focused on small and rural schools, special education teachers, and to 
enable needed alternative certification pathways. These complicated 
exceptions and the burdensome compliance and reporting associated with 
them, could be minimized by formally shifting federal law to a teacher 
quality policy-set focused mostly on student outcomes and other related 
variables, and not educator inputs. In order to have an effective 
teacher in front of every tudent in this country, these inconsistencies 
must be rectified and the focus needs to be on outputs instead of 
simply credentials.
    If states all permitted to implement growth-based models for 
Adequate Yearly Progress, then the same data used in those models can 
be integrated into educator effectiveness models that are based on 
student performance and outcomes, rather than educator inputs. States' 
longitudinal data systems can link student data across years to 
determine growth and those same growth data can be included in educator 
effectiveness measures. These data can also become important in the 
identification of effective professional development programs and 
activities that can assist educators in improving their practices.

Federal Program Monitoring Visits and Tracking Federal Funding
    Regulatory requirements focused on tracking and accounting for 
federal funding lack a focus on outcomes. The federal government's 
current system mandating how funds must be spent and accounted for by 
recipients is ``stove piped'' and does not focus on whether funds are 
well used. As the stewards of state funds, chiefs agree that a public, 
transparent accounting of taxpayer dollars is critically important, but 
the system must be efficient to ensure that scarce resources are not 
being unnecessarily diverted from the needs of students. For example, 
independent programs and separate staffs are often created, each with 
their own purposes and agendas. Too much time and effort is spent 
inefficiently accounting for federal funds program by program-including 
engaging in burdensome audits and program reviews focused on these 
issues-which has nothing to do with whether the funds are well spent on 
students. This challenge flows in part from the statute, but is 
compounded by the broad ange of Office of Management and Budget 
circulars and regulations that detail how recipients must account for 
funds.
    Lastly states often face auditing or site visits from multiple 
Department of Education entities at separate times and the reports 
developed following monitoring visits are sometimes not delivered to 
states in a timely fashion. Furthermore, follow-up by the Department to 
state responses is often slow, while States are given a short window to 
respond to findings. While monitoring visits serve an important 
purpose, the overall burden associated ith them could be minimized by 
eliminating unnecessary regulations and instead focusing more on a 
given program's outcomes for children. In closing, CCSSO supports a 
meaningful federal role in ensuring strong accountability and efficient 
oversight. The federal government must not, however, unnecessarily 
burden states and local districts with regulations that stifle or limit 
innovation. One state recently reported to us that it has had to shift 
staff into compliance oriented positions in order to meet their federal 
obligations and estimates that well over half of its state agency time 
is spent dealing with federal regulations--I'm sure we would all agree 
that spending time that way is missing the mark.
    States seek a fundamental shift in federal law that rightly raises 
the bar in terms of education goals, but clears-away unneeded 
regulation and returns power and judgment to states and districts with 
regard to the means of achieving those goals. This approach will result 
in a new and better federal policy-set that expects and promotes 
innovation, evaluation, and continuous improvement in state policies, 
instead of relying on a one-size-fits-all approach riddled with 
regulatory requirements that may discourage or prohibit effective 
evidence-based reform. States seek this proposed new state-federal 
partnership, because the elimination of burdensome regulations alone 
will not resolve the complex challenges facing the nation's ow 
performing schools, even though such changes are critically important 
to state and local leaders' abilities to help all students succeed. In 
accordance with this approach I submit for the record a recent letter 
CCSSO sent to Congress outlining a new state-federal partnership. Our 
collective goals must be to raise student achievement and turnaround 
low-erforming schools. The state school chiefs around are true partners 
toward these goals.
                                 ______
                                 
    Chairman Kline. Thank you.
    Mr. Nelson. Let us hear from higher education.

          STATEMENT OF CHRISTOPHER NELSON, PRESIDENT,
                       ST. JOHN'S COLLEGE

    Mr. Nelson. Thank you. Chairman Kline, Ranking Member 
Miller and members of the committee, I am Christopher Nelson, 
president of St. John's College in Annapolis, Maryland. And I 
have served in that capacity for over 20 years.
    St. John's is one of over a thousand members of the 
National Association of Independent Colleges and Universities 
on whose behalf I am also testifying. I am grateful for this 
opportunity to discuss with you the regulatory burden on 
colleges and universities.
    In the overall scheme of things, St. John's has been one 
tiny college among thousands. We maintain an enrollment of 
under 500 students. Nonetheless, the regulatory world applies 
to us as much as to the rest.
    Ours is a community devoted to liberal education. Our means 
are the reading of great works of literature, philosophy, 
mathematics, and science. The curriculum is rigorous and fully 
required of every student. Anything that distracts us from our 
central purpose is a loss, particularly now when resources are 
tight.
    When I consider the appropriate sharing of public and 
private responsibility for higher education, I turn to the 
words of Justice Felix Frankfurter in a 1957 Supreme Court case 
where he laid out the elements of autonomy that should belong 
to every college. ``It is the business of a university,'' he 
said, ``to provide an atmosphere in where there prevail the 
four essential freedoms of a university, to determine for 
itself on academic grounds who may teach, what may be taught, 
how it shall be taught, and who may be admitted to study.''
    In my written testimony, I provide examples of the 
unintended effects of certain particular regulations, the 
duplicative nature of others, a summary of the time required to 
respond to the myriad regulations, and reports required of us 
and the number of ``burden'' hours calculated by federal 
agencies who are required to describe the cost of compliance 
measured in staff time expended.
    To give an example, the Higher Education Opportunity Act 
alone added well over 200 pages to the Higher Education Act and 
over 200 pages to the federal regulation to the implementing 
regulations. The October 2009 general issues regulations alone 
included estimates that reported burden hours would increase in 
20 different areas, ranging from one to approximately 110,000 
hours.
    There are cumulative numbers. And this is just one 
regulatory package. The cost of compliance is large for 
institutions of all sizes, but particularly so for a school of 
our size that has no office of institutional research of staff 
dedicated to support that function. This means that literally 
dozens of people on our campus, myself included, assume this 
burden as part of our daily work.
    One effort to quantify the regulatory burden was undertaken 
by the Catholic University of America, which compiled an A to Z 
list of the laws that apply to colleges that fill nine single-
space pages. You may have this in front of you, an alphabetized 
list of these things.
    I also have with me three large notebooks right here to my 
left that the Catholic University allowed me to borrow for this 
purpose. And these just contain the summaries of those laws, 
not even the regulations or sub-regulatory guidance issued 
pursuant to them.
    Please understand that I don't question whether any one of 
these regulations supports a good end, but simply note the 
accumulative effect. My written testimony speaks to the many 
forms of regulation under the Higher Education Act, some 
directly related to programmatic administration and much that 
is not. And they come from agencies outside the Department of 
Education by virtue of the many other functions we serve.
    What concerns me most, however, is the extent to which the 
regulatory process intrudes into the core of the academic 
undertaking, intrusions that challenge the independence of our 
schools to determine what may be taught, to whom, by whom, and 
how. Diversity of mission and purpose is the greatest strength 
of American colleges and universities. Attempts to regulate us 
as though we are all trying to accomplish the same thing would 
be a mistake.
    Institutional autonomy is a strength. If a college has 
abused its public trust, correction ought to be aimed at the 
one who has abused that trust, not at the rest of us by another 
unnecessary regulation.
    Let me suggest one other thing you might consider. As new 
requirements are created, get rid of some of the old at the 
same time. The concept would be something along the lines of a 
pago system for regulation that could be applied both to 
regulatory requirements and to data collection.
    Thank you for looking at the question of regulatory burden 
and for inviting me to speak with you.
    [The statement of Mr. Nelson follows:]

        Prepared Statement of Christopher B. Nelson, President,
                   St. John's College, Annapolis, MD

    Chairman Kline, Ranking Member Miller, and members of the 
committee, I appreciate having the opportunity to appear today to 
discuss the regulatory burden on colleges and universities. I am 
Christopher Nelson, president of St. John's College in Annapolis, MD, 
and I have served in that capacity for twenty years.
    St. John's College is a co-educational, four year liberal arts 
college known for its distinctive curriculum grounded in the study of 
seminal works of the Western tradition. St. John's is a single college 
located on two campuses, one in Annapolis, Maryland, and another in 
Santa Fe, New Mexico. The campuses share an identical curriculum and a 
single governing board. Each campus is limited to fewer than 500 
students, and the faculty-student ratio is 1 to 8. We have no majors 
and no departments; all students follow the same program. Students 
study from the classics of literature, philosophy, theology, 
psychology, political science, economics, history, mathematics, 
laboratory sciences, and music. No textbooks are used. The books that 
form the core of our study are read in roughly chronological order, 
beginning with ancient Greece and continuing to modern times. All 
classes are discussion-based. There are no class lectures; instead, the 
students meet together with faculty members to explore the books being 
read.
    We are a community dedicated to liberal education, which seeks to 
free men and women from the tyrannies of unexamined opinions and 
inherited prejudices. It also endeavors to enable them to make 
intelligent, free choices concerning the ends and means of both public 
and private life. The books we read are timeless and timely; they not 
only illuminate the persisting questions of human existence, but also 
have great relevance to contemporary problems. They change our minds, 
move our hearts, and touch our spirits.
    St. John's is one of the over 1,000 members of the National 
Association of Independent Colleges and Universities (NAICU), an 
organization that represents the diversity of private, non-profit 
higher education in the United States. Some years ago, I was involved 
with a NAICU group that looked broadly at the responsibilities of 
independent higher education. Our conversations about these 
responsibilities offer a general framework for illustrating the many 
different ways to look at regulatory burden on colleges.
    Briefly, this burden can be viewed from three vantage points:
    (1) Responsibilities under the Higher Education Act;
    (2) Regulation by agencies outside the Department of Education; and
    (3) The quasi-regulatory conferred on accreditors by virtue of an 
institution's participation in Title IV programs.
    I'll talk about each of these points in a bit more detail, but 
start by observing that-whatever the vantage point-the regulation of 
colleges and universities is massive. Various efforts have been made in 
the past to quantify it, but no one has managed to come up with a 
definitive number.
    One of the more ambitious efforts to compile this information as a 
means to assist with compliance has been undertaken by the general 
counsel's office of the Catholic University of America. Among other 
things, they have compiled an A-to-Z list of laws (http://
counsel.cua.edu/fedlaw/A-Z.cfm) that apply to colleges that covers 
nearly 9 single-spaced pages. They have kindly let me borrow the three 
large notebooks on the table before me that contain just the summaries 
of the laws on the A-to-Z list. That doesn't even include the 
regulations or sub-regulatory guidance-which for the Department of 
Education alone takes up three large file boxes.
    When I step back from the mass of the more mundane record-keeping, 
reporting and compliance environment, I try to see what the effect of 
all this is on our principal task, fulfilling our educational mission 
for the sake of our students. Every diversion or distraction from these 
primary purposes weakens our best attempts to achieve those ends. Most 
especially, we all need to keep in mind the immortal words of Justice 
Felix Frankfurter in a 1957 Supreme Court case, when he tried to lay 
out clearly the essential functions of a college our university that 
should be protected from governmental intrusion:
    It is the business of a university to provide that atmosphere which 
is most conducive to speculation, experiment, and creation * * * an 
atmosphere in which there prevail the four essential freedoms of a 
university--to determine for itself on academic grounds who may teach, 
what may be taught, how it shall be taught, and who may be admitted to 
study.
Higher Education Act
    An outgrowth of the NAICU group I mentioned was a categorization of 
three types of regulation that are related to the Higher Education Act. 
These categories included:
    (1) regulations directly related to the administration of HEA 
programs;
    (2) regulations providing for appropriate accountability of 
recipients of HEA assistance; and
    (3) regulations that are not related to program administration or 
accountability, but that are applied by virtue of the fact that Title 
IV assistance is provided.
    It is the third category where most concerns about regulatory 
burden have been raised. It is not a question of the good intentions 
behind these requirements, but that they continue to accumulate with no 
paring back or review of what is already on the books. Just a couple of 
examples-
    <bullet> Colleges have been required to include in their annual 
campus crime reports ``arrests or persons referred for campus 
disciplinary action for liquor law violations, drug-related violations, 
and weapons possession. (HEA Section 485(f)(1)(F)(i)(IX). Under the 
Higher Education Opportunity Act (HEOA), enacted in 2008, colleges now 
have to include similar (but not quite identical) information in a 
biennial drug and alcohol abuse prevention report. (HEA Section 
120(a)(2)).
    <bullet> Likewise, colleges have long been required to certify 
compliance with restrictions on lobbying at the time of applying for 
federal support and after receiving it. However, under HEAO, an 
institution must annually ``demonstrate and certify'' to the Secretary 
of Education that it has not used any HEA funds to attempt to influence 
a member of Congress in connection with any federal grant, contract, 
loan, or cooperative agreement, or to secure an earmark.
    The Higher Education Opportunity Act alone added well over 200 
pages of language to the Higher Education Act and well over 200 pages 
of the Federal Register devoted to regulations to implement it. And 
that is without counting the Federal Reserve regulations issued to 
cover the Truth in Lending Act provisions included in the HEOA or any 
of the additional IPEDS survey questions and guidance.
    One observation I would make about federal regulations is that 
there is a section in each final regulation that calculates estimated 
``burden hours'' for institutions and students to comply with the 
regulations. For example, the general and non-loan programmatic issues 
regulations issued in October 2009 estimated the addition of 8,541 
burden hours for the reporting of information about retention rates, 
placement rates, and post-graduate employment. Various other burden 
estimates in this particular regulation ranged from 1 hour to 109,645 
hours.
    This is just one regulatory package. These hours add up to a point 
where compliance becomes onerous for institutions of all sizes-but 
particularly so for those as small as St. John's College. We have no 
office of institutional research or staff to support that function. 
This means that literally dozens of people on our campus, including 
myself, assume a portion of the reporting and compliance burdens in our 
daily work. But what is just as troubling is that, although there is a 
law that requires agencies to calculate estimated burden, no one really 
seems to pay much attention to what that burden is.
    We see a similar phenomenon with data collection. The Higher 
Education Act requires institutions to provide data to the Department 
of Education through the Integrated Postsecondary Education Data System 
(IPEDS). No one would argue with the need to have good data about 
institutions of higher education. However, to me, good data means data 
that people want and will use. Over the years, the amount of data 
collected under IPEDS has continued to grow without any real review of 
whether it's useful. I understand that the Human Resources survey 
(http://nces.ed.gov/ipeds/surveys/2008/pdf/HR--2008.pdf) is one of the 
more onerous of the nine IPEDS surveys (http://nces.ed.gov/ipeds/
resource/survey--components.asp), and it is not clear that much of the 
information collected on it is ever used. (I have with me a copy of 
this one. The questions and instructions cover 137 pages.)
    Finally, I would observe that there are occasions where regulations 
collide in ways that lead to nonsensical results, and I'll just give 
just one example. Several years ago, a women's college wanted to offer 
a post-baccalaureate pre-med program. The institution was told that-
unless men were admitted to the program-they would be in violation of 
Title IX regulations because the program enrolled only students who 
already had BA degrees, even though the program itself did not offer a 
higher degree. Consequently, the institution opened the program to men; 
and the highest number of men who have enrolled since that time is 4. 
Nevertheless, this school was told two years ago that it would need to 
fill out a detailed Equity in Athletics Disclosure (HEA Section 485(g)) 
form because it was a ``coeducational'' institution. (Speaking of that 
form, we at St. John's are sent that form despite our having no 
intercollegiate sports, intra-mural teams that include both men and 
women, and an entire athletic budget that pales in comparison with a 
single Assistant Coach's salary at some universities.)
Regulation by Other Agencies
    The NAICU group I mentioned also looked at the many different hats 
we wear and the wide variety of bodies to which we must be accountable. 
Broader regulation of colleges comes as part of our roles as property 
owners, landlords, financial agencies, laboratories, and the like.
    Again, appropriate regulation related to carrying out those 
functions is not the problem. Where we often run into difficulty is 
when we find ourselves having to deal with regulations that were not 
really intended for us.
    A couple of recent examples--
    <bullet> Just last week, more than a dozen higher education 
organizations joined efforts in submitting comments to the Securities 
and Exchange Commission (SEC) on proposed rules that would require 
individuals who fit the broad definition of ``municipal advisor'' to 
register with the SEC, and comply with new record-keeping requirements.
    The SEC proposal is part of the ongoing implementation of the Dodd-
Frank Wall Street Reform Act, signed into law this past summer. This 
act was never intended to regulate colleges and universities, and our 
institutions are not even mentioned in the bill or law. The intent was 
to regulate ``market professionals'' and ``market participants.'' 
However, the SEC proposals--if implemented--could require tens of 
thousands of college and university officers and employees to register 
with the SEC and adhere to new reporting requirements.
    In addition, while the definition of ``municipal advisor'' 
expressly excludes elected trustees and employees of public colleges 
and universities, it does not expressly exclude appointed trustees of 
public universities or trustees and employees of private colleges and 
universities. Yet, employees and officers of private colleges and 
universities perform the same functions as employees and officers of 
public institutions.
    <bullet> There is currently a great deal of confusion about the 
application of the Federal Trade Commission's ``red flag rules.'' These 
rules require the development and implementation of written identity 
theft prevention programs and are primarily targeted to financial 
institutions and creditors. Last December, Congress passed legislation 
to limit the entities required to develop these programs and some 
college officials thought they might not be covered under this new law. 
However, it now appears unlikely that most colleges will be excused 
after all. The legislation provides three definitions of a creditor, 
and the exemption applies only to the third of the three.
    In addition, regulation by agencies other than the Department of 
Education results in the same type of accumulated burden. Again, it is 
not a question of whether any one of these regulations supports a good 
end, but of how these things pile up. The substantial expansion of the 
information to be provided under the IRS Form 990 is one such example. 
[Additional information attached.]
Accreditation, Autonomy, and Academic Integrity
    What concerns me most, however, is the extent to which the 
regulatory process has ripple effects that intrude into the very 
essence of the academic undertaking, effects that challenge the 
independence of our schools to determine what may be taught, to whom, 
by whom, and how. This goes beyond the question of the amount of staff 
time and institutional resources that are devoted to compliance 
activities.
    I cannot measure the amount of time I have spent personally 
defending the essential strength and good effects of the peer review 
process that underlies the accreditation of our colleges. This defense 
has been required continuously over my entire 20-year period of service 
as a president against efforts, some less successful than others, of 
federal and State agencies to dictate to us or to our accrediting 
agencies what our standards ought to be for a core curriculum in the 
classroom, for student assessment, for institutional accountability, 
for inter-collegiate comparisons of measures of success according to 
wildly diverging institutional missions and purposes, and on-and-on.
    Some of this regulatory reaction is in the interest of consumer 
protection. Of course none of us would defend fraud or deceptive 
practices, but too often the attempts at regulation have rested on a 
consumer metaphor that is not well suited to many, if not most, of our 
institutions. People do not buy diplomas, they earn them. Knowledge is 
not poured into students like milk from a bottle; it is undertaken 
through an activity of learning that belongs to the students. Students 
must work at their education. So, while educational opportunity may be 
fairly claimed by them as a right, the education they might acquire is 
not. Better the government help encourage and support access to our 
institutions than seek ways to have us alter our many and diverse 
visions of what an education ought to look like! This diversity of 
mission and purpose is the greatest strength of American colleges and 
universities. In reviewing the regulatory environment for higher 
education, it would be good if this truth might be kept in mind: that 
institutional autonomy is a strength, and that where institutions abuse 
their public trust, correction ought to be aimed at the institution 
that has abused that trust rather than at the rest of us through 
another general wide-ranging regulation.
Conclusion
    As is so often the case, it is easier to describe problems than to 
implement solutions. However, I do have a few thoughts about steps I'd 
encourage you to take as you deal with regulatory burden.
    #1--As new requirements are created, get rid of some of the old 
ones at the same time. The concept would be something along the lines 
of a ``pay-go'' system for regulations. This concept could be applied 
both to regulatory requirements and to data collection. Remember too 
that all of us are regulated by another huge apparatus of State 
regulatory agencies (and I have attached a list of forms St. John's 
must file with both federal and state agencies.)
    #2--Recognize that the accumulation of layers and layers of 
regulatory activity can't be addressed simply by picking a few selected 
regulations to be abolished or modified. A good start would be to 
provide funding for section 1106 of the Higher Education Opportunity 
Act (P.L. 110-315) [full text attached], which provides for a review by 
the National Research Council of the National Academy of Sciences to 
determine the ``amount and scope of all federal regulations and 
reporting requirements with which institutions of higher education must 
comply.'' However, funding for this study has not been provided, and so 
it has not been initiated.
    I realize that funds are limited, but-at the same time-would point 
out that over the past several years the federal government has 
provided some $500 million for the development of state systems to have 
educational institutions to collect piles of unit record data. The 
Administration's FY 2012 budget request includes an additional $100 
million for this purpose. This committee wisely took the lead in 
preventing the development of such a data system at the national level. 
Rather than continuing to support activities that lead to even more 
form-filling and paperwork by educational institutions, why not stop 
funding State efforts to do just that and use those resources to figure 
out how to pare down unnecessary burden?
    #3--Finally, please be mindful of the ripple effect that 
legislative action can have. I know this can be tedious, but it is 
critical.
    I understand that today's hearing is but one of a series of 
oversight hearings your committee intends to conduct. Thank you for 
taking the time to look at the huge regulatory apparatus that is in 
place and for giving me the opportunity to appear before you.

                         ADDITIONAL INFORMATION

            IRS Form 990
    The Internal Revenue Service issued final new Form 990 and 
instructions in January 2009, for 2008 tax-year filings and beyond. The 
new form was designed to report much more detailed information in a 
variety of areas, but most specifically information regarding 
compensation, governance and endowment.
    The additional disclosure of compensation information on certain 
employees and officers and certain compensation practices go far beyond 
what the tax-exempt community has ever been accustomed to providing. 
The new disclosures are more closely aligned with those required of 
publicly traded companies.
    The new Form impacts the way tax-exempt organizations, including 
colleges and universities, must report the details of compensation 
arrangements. They are complex and require cost estimates that have 
previously been used for internal reporting only.
    For example: Part II of Schedule J specifies that all nonprofits 
must now report details of respective compensation plans in a tabular 
form that provides information on each named official--including all 
officers, directors, trustees, up to 20 key employees, and highest 
compensated employees--a breakdown of the following:
    a. base salaries
    b. bonus and incentive compensation
    c. longevity and severance payments
    d. deferred compensation
    e. cost of nontax benefit plans (medical, disability, housing, 
education, etc.)
    f. any compensation that was previously reported in a prior year 
Form 990
    There are additional new disclosure requirements relating to 
endowments on Schedule D, including:
    a. beginning and end of year balances
    b. contributions to endowments
    c. investment earnings and losses
    d. grants or scholarships from the endowment
    e. expenditures for facilities and programs
    f. administrative expenses
    g. percentage of endowment held as board designated, permanent or 
term endowments
    h. whether or not endowment funds are held by other organizations, 
related or unrelated
    i. description of intended uses of endowment funds

 SEC. 1106. ANALYSIS OF FEDERAL REGULATIONS ON INSTITUTIONS OF HIGHER 
                               EDUCATION

    The Secretary of Education shall enter into an agreement with the 
National Research Council of the National Academy of Sciences for the 
conduct of a study to ascertain the amount and scope of all federal 
regulations and reporting requirements with which institutions of 
higher education must comply. The study shall be completed not later 
than two years after the date of enactment of this Act, and shall 
include information describing----
    (1) by agency, the number of federal regulations and reporting 
requirements affecting institutions of higher education;
    (2) by agency, the estimated time required and costs to 
institutions of higher education (disaggregated by types of 
institutions) to comply with the regulations and reporting requirements 
described in paragraph (1); and
    (3) by agency, recommendations for consolidating, streamlining, and 
eliminating redundant and burdensome federal regulations and reporting 
requirements affecting institutions of higher education.

St. John's College List of Reports filed with federal and State 
        Agencies
    The following is a list of reports coordinated by our Registrar and 
completed by various St. John's employees over the course of a typical 
academic year. It is by no means complete as to reports prepared by 
other offices. They are in addition to reports to and surveys by non-
federal and non-State agencies, e.g., reports to admissions guides, 
foundations, and the like.
    The first part of the list includes reports requiring input from 
more than one office. The latter part of the report includes surveys 
completed largely by one office.
    Multi-Office Reports:
    1. IPEDS (the Integrated Post-Secondary Education Data System) 
Annual Collections
    IPEDS is run by the Department of Education and participation is 
mandatory for schools receiving Title IV funds.
    Offices with input:
    Business Office (finance survey)
    Financial Aid (annual awards)
    Registrar's Office (enrollment; degrees awarded; graduation/
retention rates)
    Personnel Office (faculty information)
    2. MHEC (Maryland Higher Education Commission) Annual Collections
    Maryland's state reporting requirements, which are also mandatory 
for schools receiving Maryland state aid (like the Sellinger Grant).
    Offices with input:
    Financial Aid (student aid file-FAIS; S5 report)
    Registrar's Office (enrollment; degrees awarded; complete student 
data file; etc.)
    3. MICUA (Maryland Independent College and University Association) 
Surveys undertaken to meet collective reporting by the MICUA to the 
Higher Education Commission.
    <bullet> Accountability Survey (Admissions; Business Office, 
Financial Aid; Registrar's Office)
    Single-Office Reports:
    1. Advancement
    <bullet> National Endowment for the Humanities
    --We the People Endowment fund financial information
    --Effects of We the People Expenditures
    --Details of We the People Expenditures
    <bullet> Maryland State Arts Council (interim and final reports)
    --Mitchell Art Gallery budget and fundraising figures
    --Information about exhibitions, programs, and visitors
    <bullet> Maryland Cultural Data Project
    --Mitchell Art Gallery budget and fundraising figures
    --Information about exhibitions, programs, and visitors
    <bullet> Arts Council of Anne Arundel County (interim and final 
reports)
    <bullet> Mitchell Art Gallery budget and fundraising figures
    <bullet> Information about exhibitions, programs, and visitors
    2. Business Office
    <bullet> Form 990, 5500, 5527, W-3, 1099, to internal revenue 
service
    <bullet> Report unclaimed property to state of Maryland
    <bullet> Annual property tax return
    <bullet> Quarterly Line of Credit covenant test to PNC bank
    <bullet> NACUBO annual endowment survey
    <bullet> Provide information for annual insurance audit
    <bullet> Provide inputs to annual FISAP report (federal financial 
aid)
    <bullet> Provide inputs to Middle States Survey for accreditation
    <bullet> Provide inputs to American Academy of Liberal Education 
Survey for accreditation
    3. Financial Aid
    <bullet> FISAP (Fiscal Operation Report and Application to 
Participate)
    <bullet> College Board
    <bullet> MICUA
    4. Library (generally needed for accreditation purposes)
    <bullet> ACRL (Association of College and Research Libraries) 
Trends and Statistics
    <bullet> National Center for Education Statistics, Academic 
Libraries Survey
    <bullet> Miscellaneous surveys such as the ALA-APA Library Salary 
Survey
    5. Personnel Office
    <bullet> Workers Compensation
    <bullet> BLS--Department of Labor
    <bullet> CUPA
    <bullet> HEDS/AAUP
    6. Registrar's Office
    <bullet> Solomon Lists to Armed Services
    <bullet> Middle State's Institutional Profile
    <bullet> Open Doors Survey (international students)
                                 ______
                                 
    Chairman Kline. Thank you very much.
    Thank all of you for your testimony.
    Thank you for bringing the display, Mr. Nelson. I am 
looking at that and thinking about what you said that that is 
the summary of the regulations. I hesitate to see what the 
whole pile looks like. You probably would have had----
    Mr. Nelson. It is actually just the summary of the laws. 
The summary of the regulations would be volumes and volumes 
more. Bigger.
    Chairman Kline. Well, that is exactly what we are trying to 
get out. So I do appreciate the--the visual aid there. I think 
it is helpful to us.
    And I want to thank all of you.
    In his opening comments, the Ranking Member pointed out 
that it is not just the federal government that has 
regulations. And I feel your pain, I think, to quote an old 
famous quote. When you think about all the regulations that are 
generated by the state, by the school boards, individual 
principals, and superintendents, everybody is trying to get 
data and to make decisions and to make sure that things work. 
And so, there is no question that you not only have those 
binders, but many more.
    Along that line, any of you, I guess we can start with Dr. 
Hatrick or anybody else. When you look at--when you look at the 
federal government, particularly--but I guess you can look 
across the state--where else are schools--and I am really 
looking at K-12 now, mostly. Where are these regulations coming 
from, what kind of agencies?
    Mr. Hatrick. Well, we have a number of regulations and 
reporting requirements to do with child nutrition, to do with 
Head Start, of course, everything surrounding IDEA that is sort 
of outside of ESEA. And then the ARRA funding that we received 
is now carrying with it probably one of the biggest reporting 
requirements we have ever experienced.
    I mean, we are literally going to submit the grades for all 
of our children to the federal government. And they are going 
to be paired with teachers. I am not sure to what end. We don't 
have a national grading scale. We don't have a national 
curriculum. But for some reason, there is interest in 
Washington in knowing what Susie made in English in the third 
grade.
    So it is just in almost every aspect of what we do--and I 
think the point is well-taken by the Ranking Member and by 
everybody else, this is not just a federal problem. My teachers 
look at me and say the same thing that you said.
    Now, sometimes they are not aware that what I am asking of 
them. I am asking because I have to report it to somebody else. 
But every time you turn around, there is both a new requirement 
and, as the teachers say, you keep adding to our daily 
requirements for what we are supposed to do, but you never take 
anything away. Well, we in the superintendency, feel the same 
way.
    Chairman Kline. Anybody else, examples of regulations, 
particularly from agencies other than the Department of 
Education?
    Mr. Nelson or ever who----
    Mr. Nelson. Well, there are a number of different agencies. 
Because we serve in capacities other than education alone, we 
have regulations for under securities law, labor and 
employment, laboratory safety, OSHA, EPA, you name it.
    Under this list that the Catholic University of America has 
done, we have got regulations just under A for the Age 
Discrimination Act of 1975, the Age Discrimination and 
Employment Act of 1967, the American Jobs Creation Act, 
American Recovery and Reinvestment Act, Americans with 
Disabilities Act, Employment, Americans with Disabilities Act 
with respect to students, animal welfare, anti-kickback acts, 
anti-terrorist financing guidelines, Anti-Trust Act of 1890, 
Artists Rights Acts, athletically related student aid, Atomic 
Energy Act, and so on. So that they don't all apply to St. 
John's, but they apply to colleges and universities across the 
country. And that, of course, is just A.
    Chairman Kline. It would be funny, except I know that it is 
a real burden.
    Mr. Nelson. Yes.
    Chairman Kline. And we want to get at that. So, again, I 
thank you for your testimony.
    Mr. Wilhoit, you mentioned that rules can stifle or flat-
out prevent innovation by states. Can you give us some examples 
where rules have just blocked you from making the changes? You 
alluded to some in your testimony, but----
    Mr. Wilhoit. I think a couple of examples of that--we have 
to remember that the environment today is very different than 
it has been in the past. There is a tremendous pressure on 
states to make dramatic changes to reach the goals we have 
established. And so, any time you freeze a set of process 
regulations and the more you define how one carries things out, 
the more difficult it is to reach the goals. So in many cases--
I will just use Title I as an example.
    When I was commissioner, I had an interesting comparison to 
make. I looked at the Title I schools who were making dramatic 
improvement in terms of student results, something I was very 
interested in. And then I looked at the results of the federal 
monitoring of Title I. And there was no correlation between the 
ones that were successful in getting student results and the 
ones who were successful under a Title I audit because those 
Title I audits were looking at procedures about how one puts a 
program in place.
    You could literally get a positive audit under the 
regulations of Title I and not be a high performing Title I 
school. What we have is more emphasis on the procedure that one 
goes through, the rules one follows, the kinds of day-to-day 
activities of the processes and papers that you have on file, 
literally. They go through those cabinets and look at whether 
those files have all those line items or not.
    And then I am over here as a commissioner trying to figure 
out how any of that has any relationship to the high-performing 
districts. You could have one--a school that is doing well and 
still not be in compliance with Title I. You could have a 
school that is in compliance and not be achieving.
    Chairman Kline. Thank you.
    Mr. Miller?
    Mr. Miller. Let me pick up on that, Gene. I think a lot of 
that is quite possibly because you weren't asking the right 
questions at that time. You were asking questions about whether 
or not you had all the marbles in the right hole. But you 
weren't asking whether or not kids were getting a good 
education at this school because you didn't have any data. And 
most school districts were terrified of the data.
    And most states were terrified of the data. They weren't 
interested in talking about performance. You know, we have a 
requirement in No Child Left Behind that 95 percent of the 
students at the school have to take the exam.
    People say, ``That is outrageous. What about kids who are 
sick? What about kids who are traveling with their parents? 
What about kids who are,'' whatever. The fact is, before that 
requirement, they were taking kids on field trips because they 
didn't want those kids taking the test because they would bring 
down the performance of the school.
    They were telling parents, ``You can keep your kid home 
today.'' They were going to study hall as opposed to the exam. 
What we tried to do--I mean, you make a great case here. You 
make a great case for reauthorization because No Child Left 
Behind was the last ESEA authorization of the last century. We 
have moved into a new century.
    Districts that used to fight data now want data. They want 
to be performance-based, at least they say they do for the 
moment. They want to be performance-based. They want to be 
based on outcomes. That is an entirely different system than No 
Child Left Behind addressed.
    One of the great disappointments was when Bill Clinton 
talked about who was going to go across the bridge to the 21st 
century, we didn't bring the American education system across 
that bridge until much later. So now the question is, I think 
as Ms. Haycock's pointed out, if you have a thin system and you 
have good data and it is performance-based and it is outcomes-
based, there is a lot fewer questions you have to ask about 
whether or not you have five reams of paper and did the federal 
government pay for three of them or did the federal government 
pay for four of them because you are only allowed to pay for 
two-and-a-half of them. And if you don't measure them the right 
way, then you can't use that paper for those Title I students.
    What the hell does that tell you? But that was on an old 
command and control system. We are trying to transition, if we 
can ever get the reauthorization of this, to a performance-
based system where, with common data across the state and with 
some sense of common core standards, we would then be able to 
see how these schools were doing. And that would be a rather 
simple question for parents, for teachers, for the community on 
how their schools are doing.
    That is a far cry from the system that has evolved since 
1965 to today. When I came to this committee we talked about 
radioactive dollars. And if they weren't radioactive and they 
didn't follow every child and you couldn't measure, we took all 
the money away from you. That was really not a good move for 
districts that were trying to provide an education.
    So we have gone through a lot of iterations here. And you 
know, when we decided as a nation and the court decided it for 
us, that children with disabilities were entitled to an 
education, you started to have to ask some questions. And we 
know what the resistance was. And we know that children were 
being put into programs that weren't designed to help them 
acquire an education.
    But now we have kind of evolved to a period where we think 
we ought to hold the school responsible for what the school can 
accomplish and not punish them for those things that they can't 
accomplish. That is a far different mindset than 1975. So the 
time has come, I think, really for this committee and for 
organizations to start thinking about how you transition to an 
information-based system, which is--most of the things you read 
there in that list of information have nothing to do with the 
performance of these schools or the information that should be 
imparted to communities and parents and teachers and others 
about what is going on in that school.
    And I would hope that in this reauthorization, if we are 
able to get to it, we can jettison reams of federal 
requirements that provide no value-added to the education of 
these children or to our ability to provide a better education, 
hopefully, better tomorrow than we did yesterday. So I think 
this is a fundamental challenge to us. But I don't know how you 
get there if you don't go for the reauthorization.
    Highly-qualified teacher--the first time I said we should 
have a highly-qualified teacher in class, I lost on the House 
floor 434 to one. People said you are not telling us what kind 
of teachers we are going to have in the classroom. I said, gee, 
I thought maybe they would have subject matter competency. We'd 
just start with that. You know, if they are going to teach 
history, that they took a course in history.
    But anyway, we have come a long way since then. We have 
come a long way since then. Growth models--you are right. 
School districts couldn't do a growth model because they didn't 
want an information system because the teachers didn't want an 
information system. And sometimes the schools didn't want an 
information system because they weren't proud of what they were 
doing or they were afraid of of what it would show.
    Well, I think that--hopefully, over the last couple of 
years and a lot of political battles here and the emergence of 
new players in this system and new beliefs about accountability 
that we can now move to a modern, if you will, relationship and 
partnership between the federal government and local school 
districts and those communities. But I will not give up on the 
idea that there is information that provides a level of 
transparency so that parents and communities can make decisions 
about their schools.
    And we should never, ever give up on that because we see 
all across this country where parents have been empowered by 
the really crumby information that is given out today under No 
Child Left Behind. But it is more information than they ever 
had access to before. And that is going to be a real challenge. 
And we should grandfather a pay-as-you-go. We should write a 
new one, get rid of the one that is now obsolete because there 
is no point in having people respond to the Act of 1890.
    Thank you.
    Chairman Kline. I thank the gentleman. I am hoping that we 
can, as we enact one, we can get rid of several and start 
looking at the reams that Mr. Miller was talking about and make 
this simpler. That is why we very much appreciate your 
testimony today as we try to understand the burden and what 
just seems to be reporting for reporting's sake and not really 
helping to educate children.
    Dr. Roe?
    Mr. Roe. Thank you, Mr. Chairman.
    Mr. Nelson, I thought you had brought the Health Care Act 
with you over there on the table, looking at the size of it.
    I come from a background of having been a previous mayor of 
a city, having a local school district under me.
    And, Dr. Hatrick, you are to be commended for 20 years. 
That is a tough job. And I think one of the toughest jobs is 
most--I thought doctors were frustrated. The most frustrated 
people I meet now are teachers.
    I had a chance to meet with several teacher groups last 
week in Sevierville, Tennessee. And they are inundated with 
data.
    And, Mr. Miller, I agree with you. If the information is 
worthwhile, it is worth doing. It is worth gathering. But if it 
is not, just to gather data for data's sake and to look at this 
thing that Mr. Nelson brought with him--and I know this is what 
is going on.
    And we just got Race to the Top funds. And I asked the 
teachers--I am talking about the teachers teaching the 
children, not all the clipboard people above them gathering 
data, but the actual people in the classroom. They are very 
frustrated people because they don't have--their time is being 
taken up and time added to their day to do this stuff that, I 
don't see, that adds much value.
    And so, I know as a local mayor that the most frustrating 
thing that I ever dealt with was another unfunded mandate from 
the federal government. And I almost said if it cures cancer 
and it is unfunded, a mandate from the federal government, I 
wouldn't vote for a law here. I am being facetious. But you see 
where I am coming from.
    Dr. Hatrick, when you dealt with that, or you deal with 
that, do you sense that same frustration? For instance, the 
disabilities, a valuable program. But we are providing in your 
district 9 percent of the funding and Lord knows how many 
requirements.
    Mr. Hatrick. Yes, it is a huge frustration for teachers. 
One of the phenomena I see--I actually came in to central 
office work from a high school principalship with the full 
implementation of what was then called Public Law 94142. Now, 
we know it as IDEA now. And, you know, there were reporting 
requirements. There were regulations.
    We all thought that what we were doing for disabled 
children was what we should have been doing for a long, long 
time. We have no complaint about that. But I hear from teachers 
now--I see it every year. I see teachers who leave special 
education classrooms to go into regular education classrooms to 
get away from the burden of the paperwork and the requirements 
that take them away from teaching.
    One of my children was a special education teacher in 
California. And he now works in the central office of the L.A. 
Unified School District recruiting occupational and physical 
therapists for that system. It is 650,000 students, so he can 
have that kind of a niche.
    But one of the things that frustrated him as a special 
education teacher was the amount of paperwork that was imposed 
on the process that he couldn't find a nexus between what he 
was doing and the improvement of instruction. So, yes, it is 
very frustrating.
    I mean, in our district, 1.5 percent of all the funding in 
my district comes from the federal government, 1.5 percent. 
And----
    Mr. Roe. I agree with you.
    Mr. Hatrick. I will stop there.
    Mr. Roe. I was looking how we funded our local schools. The 
city provided almost a third, the county and then the state, 
and, exactly, about 1 percent. I wanted to send the money back. 
I said, ``I am not getting value for all we are filling out 
here for the amount of burden that we are putting on our 
classroom teachers.''
    And it is one thing to use data. Let me give you an 
interview I heard the other. Former D.C. school superintendent 
here said that she had poor families in that were in under-
performing schools, and she wanted them to get in a better 
school, in a charter school. These folks jumped through every 
hoop that they could and then couldn't get their kids into a 
charter school, which meant that they were left in an under-
performing school. And they had no option.
    And that is why she was one--and I am a guy who went from 
the first grade--we didn't have a kindergarten when I was in 
school--but the first grade through twelfth and college through 
the public school system. So I am a huge supporter of public 
education. But then what is the option when you have failing 
schools out there and there is no other option left? What do 
you to then?
    Mr. Hatrick. I guess if I knew the answer to that question, 
I would copyright it or patent it and retire. I think we have 
to look at a range of service delivery models for students. I 
believe, frankly, they all ought to be within the framework of 
public education. But I think there are alternatives available 
to us in the world of public education that can meet those 
needs.
    I think we also have to recognize that sometimes we label 
schools as failing when, in fact, they are part of a failing 
community. And the school is, you know, maybe the symptom of 
what is going on in family life and community life and the 
whole social fabric.
    Chairman Kline. The gentleman's time is expired.
    Mr. Roe. I yield back.
    Chairman Kline. Mr. Andrews?
    Mr. Andrews. Thank you, Mr. Chairman.
    Ms. Haycock, I am sure you talk to a lot of educators on a 
regular basis in your work. If you were to ask those educators 
what they think the biggest problem that ought to be solved in 
their schools is, what would they say?
    Ms. Haycock. That is a very good question. And I do--I 
actually spend most of my time meeting with groups of educators 
and community folks all around the country. I would say the 
vast majority of teachers would say the problem they need the 
most help with is around, sort of, curriculum and resources. 
What we do in this country most often is we hand teachers 
copies of our new standards, and we say, essentially, ``Go 
teach.''
    In most other developed countries, they actually get a 
curriculum. They get really good instructional resources. They 
don't, in other words, have to work hard all day, go home and 
grade lessons and then after they are really tired, make up 
what they are going to teach the next day. So I think the 
biggest need for--expressed by teachers is really around the 
quality of curriculum and instructional support.
    Mr. Andrews. Do you hear them also speak about ways to try 
to engender more parental involvement and more support of home 
environment for the students?
    Ms. Haycock. It certainly depends on what school, what 
community. Most of the schools that we have worked with over 
the years that are doing really well by their students, even 
students who come from very, very difficult circumstances, have 
figured out ways to engage parents. I mean, we know how to do 
that now. And parents are, despite the difficulties of their 
own lives, now real partners with their children--with their 
school and their children's education.
    Mr. Andrews. If you ask teachers to name the top three 
obstacles that they confront at succeeding with all their 
children, would too many rules and regulations to follow make 
the top three for many of the people you ask?
    Ms. Haycock. That is certainly not the--those would not be 
in the top three from teachers, no. That might be in the top 
three from principals, although there would be two others on 
top of it.
    Mr. Andrews. Okay.
    Dr. Wilhoit--Mr. Wilhoit, excuse me. In your testimony, you 
say that states strongly agree with the need to strategically 
collect critical data to support accountability and inform 
policy decisions but strongly oppose data collection for the 
sake of data collection. And I think you will find universal 
agreement with that proposition here.
    And I thank the panel for giving us some very concrete and 
specific suggestions as to what some of those data collections 
just for the sake of data collections might be. And I am sure 
that members on our side would like to work with the chairman 
and the majority to try to take those regulations off the 
books.
    But I want to ask you this question. Many of the data 
reports that are made are made to the Department of Education. 
Do your members favor the abolition of the Department of 
Education?
    Mr. Wilhoit. No, there is no consensus. There are 51 of 
them, and they have 51 different perspectives on this. But 
there is no consensus about that role. I think they find 
certain functions of the Department of Education to be 
extremely helpful. I think they find other functions to be 
frustrating. And so----
    Mr. Andrews. What are the functions that they typically 
find to be helpful?
    Mr. Wilhoit. I think most recently, the effort on the part 
of the federal government to work directly with the states as 
policy is developed. If we are included in those early 
conversations and if we are a part of providing feedback, as 
policies are developed and as programs are implemented, we 
surface a lot of issues that can be avoided and problems that 
could be avoided. And so, I think most recently, they have been 
very pleased with the way that the department is reaching out 
to the states to engage them in that indirect process of 
regulation and policy setting.
    Mr. Andrews. And just, if you could, supplement for the 
record, when you have an opportunity, if any of your 51 members 
favor the abolition of the department, we would just like to 
have that for the record.
    Mr. Wilhoit. Sure.
    Mr. Andrews. Thank you.
    I yield back.
    Chairman Kline. Thank the gentleman.
    Dr. Heck, you are recognized.
    Mr. Heck. Thank you, Mr. Chairman.
    Thanks to the panelists for being here today. I think 
everybody agrees that we need to try to strike that balance 
between regulation, accountability, and transparency and 
meaningful results. We have heard a lot of talk about data 
today. But, in and of itself, that is just it. It is numbers. 
It is facts. And unless it is synthesized into meaningful 
information, collecting data really doesn't mean a whole lot to 
the process.
    My perspective on this is twofold. One is, as a father of a 
13-year-old in the public school system in Southern Nevada, who 
this week is undergoing CRT, Criteria Reference Tests, pre-week 
for the test that he is taking next week, losing 8 
instructional days to both test prep and then actually taking 
the test to meet the requirements of this regulatory burden. 
And also as somebody who has spent a little bit less than half 
his life, 44 of 49 years, in school getting my degree with an 
undergraduate degree in education and thinking that I was going 
to be a teacher; until I did my student teaching and realized, 
similar to what Ms. Haycock said about being able to walk in 
and saying this is what you are teaching today with no 
resources and learning about the regulatory issues that I was 
going to suffer under and decided to go into something less 
stressful and went into medicine.
    So in prepping for today, I heard from a constituent, 
Catherine Unger, who is a speech language pathologist. 
Sometimes forget the ancillary specialties that are also 
involved in educating our youth and concentrate on teachers.
    And her concerns were over the IEP being used as an annual 
progress report and the fact that so much time is spent on 
making it look good on paper, whether or not it really had the 
students' best interests and needs at heart and also the 
disparities in requirements for documenting the therapy and the 
services that they provide, the differences between a special 
education teacher and a speech language pathologist. So a lot 
of discrepancies.
    So my question would be for each member of the panel. If 
you could, make one recommendation on how to strike that 
balance between regulation, accountability, and transparency 
and meaningful results. What would that recommendation be?
    Mr. Hatrick. I think I would recommend hearing from the 
practitioners in the field. I know among superintendents--you 
know, I go back to the fact that my colleague superintendents 
around the country, the vast majority of them are in school 
districts with very limited resources in terms of help. So when 
it comes time to fill out a report, guess who is doing it? The 
superintendent, the clerk of the board, the director of 
instruction--you know, you have a central office of three or 
four people, not three or 400 people.
    I think it would be extremely useful to bring in people 
from the field who represent the various teaching disciplines, 
various size school districts and just take some time to sit 
down and say with USED people, with congressional people, 
``Okay, why are we asking for this? How are we using the 
information once we get it? And what is the impact of providing 
it in the field?''
    Otherwise, I think we keep talking around the big issue. 
And then what we do is we just pile on. We keep adding. We 
never take away. But I think we need to get back down to the 
people who are impacted by this, the speech therapists. You 
know, we partner with schools overseas, American schools 
overseas. And there are people teaching in those schools who 
are special education teachers who tell me they won't come back 
to the States because they don't have the requirements of the 
IEP. They teach children.
    Mr. Nelson. I had a thought on behalf of higher education. 
And that is that I am a huge fan of the peer review process for 
accreditation where we are all asked to look at our 
institutional purposes, our mission. And then we are asked, not 
only whether we fulfill those purposes and that mission, but 
how we can improve on it.
    And we are getting candid and helpful advice from 
professional educators, people who know our world and are 
trying to help us. It allows us to be candid about our faults. 
Any effort I see in federalizing accreditation--and there is 
some movement toward that, many efforts in the last several 
years--undermines this process.
    What I am talking about is efforts by the department to 
pass a regulation that typically states something like this: 
``The accrediting organization is required to assure that 
institutions X, Y, and Z do the following.'' And so, they are 
doing indirectly through the accrediting agencies what they are 
not doing directly with the colleges and for good reason.
    I fear, as I serve on these accreditation teams myself, 
that more and more accrediting agencies are asking this 
question: What does the federal government want, rather than, 
what do these schools need to do to improve the quality of 
their education.
    Chairman Kline. The gentleman's time has expired.
    Mrs. McCarthy?
    Mrs. McCarthy. Thank you, Mr. Chairman.
    Mr. Nelson, one of the things that, listening to your 
testimony and going through your testimony--over the years, I 
have been extremely active in the best way that we can make 
sure our college campuses are safe. After Virginia Tech, I had 
introduced legislation, which was accepted and put into the 
higher education bill, basically working with the Cleary Act 
and also making sure that students would be notified any time 
there was an emergency on the campus.
    Given the concerns that, basically, all of you are, 
basically,raising about the redundancy in a lot of the 
reporting--and I can understand that. In health care, they are 
doing the same thing. Some of the HEAs campus safety guidelines 
that I fought to get into there--is there an interest in the 
colleges in seeing a--you know, bringing them all together on 
these guidelines into a single, maybe more guidelines related 
to, like, alcohol and substance abuse because that is a safety 
issue on the campus also and consolidate them into, maybe, a 
guidance that draws on the best parts of the reporting 
guidelines. Could something like this be basically accomplished 
in the goal of streamlining the regulations while basically 
also----
    Mr. Nelson. Yes, I haven't----
    Mrs. McCarthy. Following the original----
    Mr. Nelson. I haven't thought about that in particular. But 
I can imagine that such a thing would be possible. I mean, I 
look at the importance of these issues to St. John's College. 
And so, they must be huge to others.
    We spend whole faculty meetings, where we might be talking 
about what is going on in the classroom, to talk about drug and 
alcohol issues, to talk about how we meet the various 
requirements and regulations pertinent to the Americans with 
Disabilities Act and health and safety issues and the like. And 
we bring in counselors and advisers to help us on this.
    We even go through these drills and safety training with 
police and fire to see what kinds of--what our response ought 
to be like, how we would communicate, especially in a world 
where technology has such a play. And one needs to be ahead of 
this, lest the world of communications and blogging gets out 
such bad information, that people act wrongly in all of these 
things.
    So I can imagine that there is a place where we could learn 
together how to streamline and how to think about best 
practices there. But I haven't done that yet. I haven't given 
thought to it. If I come up with something, I would be happy to 
get back to you.
    Mrs. McCarthy. Well, I would because, obviously, hopefully, 
we will go forward on reauthorization. And I think there are 
issues that we need to look at, especially on safety on the 
campuses. You know, unfortunately with the shooting in Arizona, 
one of the universities had signs that the person that did the 
shooting was not well.
    In one way, a week after they suspended him, they actually 
put a program together. So, I mean, things like this are always 
going to come up. But yet, we need to make sure our 
universities and all of our campuses are safe.
    Mr. Nelson. I agree entirely with this. And we have gone to 
seek best practices from other schools in all of these areas. 
We have a psychiatrist on-call. We have several campus 
counselors for a tiny student body.
    We have very tiny classes. And we actually take attendance. 
Failure to show up in class, we see, as a sign that there may 
be a problem. And then we have staff, both students and 
faculty, who will be there and go straight to the student's 
dormitory room or make calls on roommates or downtown in the 
off-campus housing.
    One thing you can do as a small school, giving a lot of 
personal attention, is to attend to the particular needs of 
each of those students. But in doing that, we also build 
cooperative relationships with police and fire and emergency 
services, with the U.S. Naval Academy across the street, with 
the state capitol building, which is also across the street. We 
are rather well-protected or well-targeted with these 
institutions around us.
    Mrs. McCarthy. But as we go forward, I certainly hope that 
you will give us some thought because maybe we can reach out 
and work and how we can do that without the redundancy of more 
regulations and everything else like that.
    Mr. Nelson. Thank you.
    Mrs. McCarthy. Thank you.
    Does anyone else have--I know I was talking about a campus, 
but school grounds now are just as dangerous at times.
    Mr. Wilhoit. I think you could apply this dilemma to 
several aspects of K-12 education. There have been similar 
sorts of horrible incidents that have occurred and systems 
haven't been prepared for them. I think in terms of this 
conversation today, there are a couple of different pathways 
that could be taken in how to deal with that in terms of 
regulations and in terms of oversight.
    Our thought on this would be that that problem should not 
be ignored. It is a responsibility of the institutions to 
respond to it. But the way in which the laws are written and 
the way in which the regulations are developed could lead those 
institutions down a pathway of taking--pay more attention to 
the nature of the plan, the design, the reporting mechanisms 
around that than encouraging each of those institutions to 
build off of a generalized requirement that they address these 
issues, giving greater latitude in terms of how those plans are 
developed.
    Mrs. McCarthy. So basically, you are also talking about 
having the flexibility of working for your campus. Basically, 
it might be different for another kind of campus.
    Mr. Wilhoit. Absolutely. The----
    Chairman Kline. The gentlelady's time has expired.
    Dr. Bucshon?
    Mr. Bucshon. Thank you, Mr. Chairman. I am going to make a 
few comments just--and thank you, panel, for being here to 
testify today.
    And just to give you--my background is in cardiovascular 
surgery. And we found in health care that--and this seems 
fairly obvious. But just because we think something logically 
should be true, doesn't mean that it is.
    And what I mean by that--our specialty has developed a 
database in cardiovascular surgery that shows us what works and 
what doesn't. We collect that ourselves. And we change practice 
patterns based on that data and not what we think works, but 
what we know works.
    This will lead to a question, by the way. Also, however, 
there is a concept of local standard of care in medicine. And 
what some do well, others may not. And what works for some, may 
not work for others. So in that context, I am pretty much a 
results-driven type of thinker.
    And, Dr. Hatrick, I would like to know, over the course of 
your career in education, regulations obviously have increased 
and not decreased. And the bottom line is it appears to me that 
the results haven't really changed. So if we are continuing to 
do a premise that regulation is what is going to make our 
students better, it seems like to me that, based on my health 
care experience, it is not working.
    And I would like just to see what your comments are. Are 
the students doing better--that is the bottom line--since you 
started your career compared to today?
    Mr. Hatrick. Yes. I don't think there is any doubt students 
are doing better now than they did when I started my career in 
1966. They have more opportunities. We have less dropouts. We 
have more high school completers, more college completers.
    Whether or not they are doing so much better that they can 
compete in the world, which is doing better, is sort of a 
different question. I am not sure, though, that I would attach 
their doing better necessarily to regulation. I would attach it 
more to enablement.
    And I realize that when we enable programs--when we 
admitted disabled children to school who were turned away prior 
to the implementation of 94142--I mean, we basically said we 
just don't have a place for you. We were giving them an 
opportunity they didn't have before. But I do find it hard to 
find the nexus between the reporting we do and the improvement.
    And maybe I am making a fine line. I do agree that it is 
important that the data be collected to prove that we are doing 
what we say we are doing. But it ought to be measured on 
student outcome and student performance. And I hear a lot of 
agreement here. I am encouraged by this committee, quite 
frankly, that there seems to be some agreement across the 
committee about this.
    Mr. Bucshon. Mr. Wilhoit, you have a comment?
    Mr. Wilhoit. Yes. I think you are onto something. And I 
think we in education need to pay a lot of attention to the 
developments in the medical profession over the last several 
years. You can draw that analogy of medical practice many years 
ago and compare it to today.
    And I think the elements of what you are talking about 
could be really transformative in terms of educational 
practice. As I understand it, practitioners are engaged in 
deliberate work in the medical profession in teams. Individuals 
are assuming appropriate roles in that process. And as 
treatment is made, it is collected, and it is reported. There 
is an accumulation of knowledge there from practice that others 
can build on.
    We don't have that in education. We don't have a way to 
bring the wealth of knowledge and learning that is going on in 
one location and transferring it to another. You have a rich 
database for sharing that information, but it is driven by the 
practitioners, not from someone outside. It is driven by best 
practice.
    You are eliminating those procedures that do not work. And 
you are building off of those that are working. And you are 
developing, as a result of that, I think, a profession, a true 
profession or practice there that is not consistent in 
education.
    We are not applied researchers in education. We are 
basically, at the local level, consumers of knowledge rather 
than those that are creating knowledge, as you are in the 
medical profession. So I would love to continue that 
conversation with you. I think you are onto something that 
could provide guidance to the education improvement in the next 
few years, from the medical profession.
    Mr. Bucshon. I yield back my time. Thank you.
    Chairman Kline. I thank the gentleman.
    Ms. Hirono?
    Ms. Hirono. Thank you, Mr. Chairman.
    As I listened to the responses of the panel to some of the 
questions asked by my colleagues, it occurs to me that as we 
are looking at reauthorizing ESEA--and you have all talked 
with--you all come from your different perspectives and 
experiences in dealing with educators, do you have--could you 
cite specifically three--it doesn't have to be three--major, 
specific kinds of changes that we should make to ESEA to 
improve ESEA?
    For example, I note that Mr. Wilhoit says that we should 
allow those states that have the capability to measure by 
growth models, that we should allow for the use of growth 
models. To me, that is a very specific kind of change that we 
should contemplate making to ESEA. So why don't we start with 
you, Mr. Wilhoit?
    Mr. Wilhoit. And I would begin by creating this 
environment. It is important, with one slight addition to the 
growth model. Growth is important. It allows us to accumulate 
knowledge in an incremental way and to adjust practice based on 
that growth. It also provides a motivation for local schools to 
improve. But that growth has to be against status.
    That is we need to be working toward those lofty goals that 
we have set for each of our students. And for me, that leads to 
the second piece of this. And that is every student needs to be 
benchmarked against preparation for future life. And that is 
college and career-ready. We need to set lofty standards as a 
guidepost for the states as they move forward.
    So I would include both the ability to make incremental 
progress tied to a much higher set of goals. And the states are 
coming together around those goals for college and career 
readiness, defined in the broadest context.
    Ms. Hirono. What about the other members of the panel?
    Ms. Haycock. Sure. Let me agree with his suggestion that--
one is, I think everybody on this panel--as everybody on this 
panel knows, one of the most pressing issues on the minds of 
educators and parents across the country right now is the 
quality of our teacher force.
    As Mr. Miller indicated, you took an important step forward 
during the last reauthorization in putting attention on teacher 
quality. But you need to go the next step now and make sure you 
are looking at actual effectiveness of teachers as well as who 
gets access to the strong teachers. It is very, very 
fundamentally important part of the law.
    The second change that I would encourage you to consider is 
to fix the comparability requirements of the law. Currently, 
Title I is based on a fiction. The idea is that districts 
provide equal amounts of dollars to their schools, and then the 
Title I dollars provided by the federal government provide 
extra on top of that. In other words, so you can provide extra 
help to the kids who are living in poverty.
    But the reality is the way those requirements are 
administered allows teacher salaries to be excluded because 
that is the largest portion of the school spending. You have 
essentially eviscerated the impact of that law. And Title I 
dollars, instead of providing extra, are therefore, actually 
subsidizing schools with what should be provided by state and 
local dollars.
    Mr. Hatrick. I think my hope would be that in 
reauthorization, what has become, in my career, a very 
scattered approach by the federal government, would be refined 
and particularized again and that we would get back to some of 
the roots of ESEA, which were to address rural and urban 
poverty. Now, unless--and the unless part is unless the federal 
government intends to put a whole lot more money into public 
education than it now provides--because I think what happens is 
the federal dollars get so spread out, that local school 
districts don't have an opportunity to really make a difference 
in the lives of children.
    I mean, I talk to superintendents across the country who 
say by the time it all washes through, they are spending hours 
and hours and hours reporting on the effective of $32,000 in 
their school district. And I think that is because we have got 
money going where it is not really needed. And I have to say I 
hope none of my folks are listening. My district is probably 
one that could do with less federal dollars if more federal 
dollars would go to where the children really need them.
    And I think then if reporting followed that, if regulation 
followed that, that--you know, yes, it ought to be the business 
of the federal government, where it sends money, to make sure 
that growth is occurring. But it is not, I don't believe, with 
all due respect, the business of the federal government to be 
responsible for growth occurring everywhere.
    That is what we have local school boards for. That is what 
we have public--you know, state education agencies for. So I 
hope ESEA will get back its focus on the kids who are really 
being lost, I mean, who are still being left behind, for all of 
our best efforts. And those are the kids who live in rural and 
urban poverty.
    Ms. Hirono. Well, I----
    Chairman Kline. The gentlelady's time has expired.
    Dr. Foxx?
    Ms. Foxx. Thank you, Mr. Chairman.
    I found the testimony here today very, very enlightening. 
And I do have several questions.
    Mr. Hatrick, you mentioned not getting any feedback for all 
the data that is collected. And let me tell you. I was 12 years 
on a school board. I was university administrator for 15 years 
and teacher. And I was a college president for 7 years. So I 
know a little bit about this work. Do you know of any feedback 
that has been received from the Department of Education that is 
useful to a local school district?
    Mr. Hatrick. Well, let me just talk about my district. No, 
I don't think I could point to any data we have received back 
that made us go, ``Aha, we need to change what we are doing,'' 
most times because by the time the data makes its way all the 
way up the chain and then all the way back down the chain, we 
are looking at data that is 3 or 4 years old. And I think that 
is another area we really need to look at.
    Are there means of using the power of the Internet and 
electronic reporting to make data available? It is like what 
teachers tell us. You know, when you test once a year and you 
give--you know, you wait 6 weeks or 8 weeks or 3 months to give 
me the results, that doesn't affect my teaching.
    Ms. Foxx. Sure.
    Mr. Nelson, in your testimony, you mentioned there are many 
regulations in place that aren't worth the burden placed on the 
institutions. Could you name any regulations that are worth the 
burden that are placed on your institution?
    Mr. Nelson. I guess, I think that there are a lot of useful 
laws. And some of those regulations--I forget how much--that 
the regulatory burden or the legal mandate behind it--that, I 
think, are good for the college. But if you are referring to 
data that may have come back to us, which was the question of 
the last one, then I don't recall seeing data that was helpful 
generated from outside.
    But I think that there is an awful lot of good in the law 
that has been passed. It is just a question of the cumulative 
effect of all of that and the detrimental effect of having some 
of that come in the form of attempting to intrude into the 
educational mission of the school.
    Ms. Foxx. Let me ask the question in a slightly different 
way then.
    Mr. Nelson. Yes.
    Ms. Foxx. Is there anything that you are doing now that is 
required by federal law that you wouldn't do if the federal law 
didn't exist?
    Mr. Nelson. Well, I guess, I mean, a lot of my time is 
spent fending off a lot of what I think is either coming or has 
been coming under federal law. And so, I referred to the burden 
of this federalizing encroachment in accreditation. There are 
things that we are measuring because they can be measured 
rather than because they are good. And I think those are the 
ones that are the most dangerous. Many other things, I think, 
are probably quite good that we do and that we would continue 
to do if the laws were repealed.
    Ms. Foxx. Mr. Wilhoit, I was in charge of an upward bound 
special services program at a time in my life. And I am very 
familiar with the kind of audits you were talking about for 
Title I, where they come in--somebody would come in. They would 
be paid a lot of money and spend 3 or 4 days going through my 
files just to check to see if all the boxes were checked, which 
didn't tell anybody anything about the effectiveness of the 
program.
    The issue you brought up about teaching not being a 
profession in the sense that we have not used the knowledge 
that has been produced--I have been hearing that for 40 years 
or so, maybe, since I have been in the education profession. Is 
there any area that you can point to where we have, again, used 
feedback, particularly from the federal government to make 
modifications that have been good modifications?
    Mr. Wilhoit. I would separate this. The intent of law, 
federal law, in my mind, is laudable. And those laws are put--
have been put in place to address real problems. And in many 
cases, those federal laws have caused states to take the right 
action. And I could point to good examples of that over time.
    We get into trouble when we don't implement those laws in 
light of the specific requirements of the law and do not look 
at it from the context of the overall information that needs to 
flow back. And in the process, we begin to drive practice 
toward implementation of those regulations as opposed to the 
real focus on children.
    Ms. Foxx. Thank you, Mr. Chairman.
    Chairman Kline. The gentlelady's time has expired.
    Mr. Scott?
    Mr. Scott. Thank you. Thank you, Mr. Chairman.
    Dr. Hatrick, how much of this data is--if we would call it 
data--and how much of it is prose, where you have--somebody 
actually has to compose a paragraph or something in response? 
Is most of what we are talking about things that you can run 
out of a computer?
    Mr. Hatrick. It is a combination, Mr. Scott. Yes, you can. 
I used to catch a lot of grief from my people when I would say, 
well, can't you just push a button and give me that 
information. Because in most cases, you really can't. The part 
of the issue we face is data is there, but different agencies, 
federal and state, want it in different forms. And so, we spend 
a lot of time trying to make the data fit the form. And I think 
there was a suggestion earlier about, you know, some coming 
together to decide, some centralization, to decide that might 
ease that.
    Mr. Scott. Well, let me ask Mr. Wilhoit. You are part of a 
national organization. When rulemaking is going on, are you 
testifying to see if they can't make the rules as simple as 
possible?
    Mr. Wilhoit. We attempt to do so at every opportunity.
    Mr. Scott. Do you also make--try to see if there is some 
kind of conforming software where all the states are using the 
same software so they can push the button that we are talking 
about?
    Mr. Wilhoit. Data systems have emerged out of independent 
actions of local districts and out of individual work on the 
part of states. So we have an interesting dilemma in front of 
us.
    How do the states come together? We have a project underway 
with the higher ed. institutions to standardize our data 
elements.
    Mr. Scott. Are you all working on standardization?
    Mr. Wilhoit. We are all working on that and reporting.
    Mr. Scott. So everybody can report the same?
    Mr. Wilhoit. Yes.
    Mr. Scott. I think you indicated some central point. Are 
you suggesting that we establish within the Department of 
Education some centralized point where all data requests have 
to go through so when the data request is made, it is made in a 
form that is as easy as possible to comply with?
    Mr. Wilhoit. Exactly. And that those data are looked at 
from an institutional perspective, not necessarily from an 
individual program perspective.
    Mr. Scott. Now, if we had such a little office like that, 
would that save money?
    Mr. Wilhoit. Depends on how one puts it in place. If you 
layer it on top of the other elements that you have in place, 
it probably wouldn't. If there is some forethought to this, it 
could save a lot. It could save, on the other end, tremendous 
amount of energy and time at the local level.
    Mr. Scott. And so, if it is done right, it could be 
extremely helpful. And I assume you are going to try to be 
helpful in getting it right for us?
    Mr. Wilhoit. We will, yes.
    Mr. Scott. Part of the data that we request is kind of what 
I call input and some output. Output means did the students 
learn. But if you don't have any input data, okay, they didn't 
learn. Now what? And if it is all input, did you use the right 
number of paper, did you come to the right number of students, 
it doesn't have anything to do with education. How do we get 
the regulations kind of done so that we are actually being 
productive?
    Mr. Wilhoit. It seems to me the issue is what is important 
for federal policymaking to be reported up. And then it gets 
back to this issue of building the knowledge base at the place 
where it makes a difference. And that is primarily at the local 
level. That is where we need to begin to emphasize the sharing 
part of this and the growth, not so much that people are taking 
actions or undertaking procedures for reporting purposes.
    The real issue, it seems to me, is how do you build a 
system where professionals are learning from practice and 
adjusting practice accordingly, not reporting data upward. And 
it seems to me, at the same time, we need to be thoughtful 
about what we learn out of that process for future policymaking 
purposes.
    But again, all of that could be done with a thoughtful 
application of technology and the sharing of that. And you 
wouldn't have to interfere in the lives of folks if we had a 
system where they could push information up and it simply could 
be collected without interrupting lives on a regular basis.
    Mr. Scott. Well, we look forward to you helping us in that 
process.
    Mr. Chairman, I yield back.
    Mr. Kline. I thank the gentleman.
    Mr. Hunter?
    Mr. Hunter. Thank you, Mr. Chairman.
    First question is related to the last question. What is so 
complicated about having an open API? Or you would call it an 
advanced program and interface, which means that you can put 
data out in any form you wanted to and have it accessible by 
the state or the feds in their own way so you don't have to do 
it their way. You just put it there. That is what every 
business does.
    McDonald's can tell you how many cheeseburgers were bought 
yesterday at the McDonald's by my house. So what is so 
complicated? I am just not getting it.
    Anybody, please, feel free.
    Mr. Wilhoit. It is complicated because we are trying to 
insert this sort of rational approach on top of a system that 
has emerged over time with high disconnected applications and 
procedures in place. You have to agree on the elements that one 
is going to collect. You have to agree on the standards of 
collection. You have to have systems in place that collect that 
information.
    I think the technology is at a point where we could do 
this. I think it is a matter of working through the human 
element and applying it to the system that is now in place.
    Mr. Hatrick. I think it is also the lack of a common 
definition of what the data is. I mean, McDonald's knows what a 
hamburger is, what a McDonald's hamburger is, which may not be 
the same as a Wendy's hamburger. But they know what their 
hamburger is. And they count those burgers. And they know how 
to prepare them.
    And we don't have those common definitions when it comes to 
educating children. So I think the data we are trying to 
collect is much, much more complex. If you ask me about my 
school bus operation, I can tell you how many miles they drive, 
how many accidents per mile, et cetera, et cetera, et cetera. 
There is a real shift when you get into the classroom and you 
start trying to figure out the effectiveness of a teacher 
working with a disparate group of students.
    Mr. Hunter. Well, let us move this on then and talk about--
and, if you would, Mr. Nelson, just let me add this one part 
in. Then how do you do this if you are a rural school? Because 
you have talked about you have the ability and capacity and the 
wherewithal to do all of these things, provide data to 
different people in different ways. But if you are a rural 
school, you are not able to do this. So what do you think the 
impact is on rural schools having to meet all of these 
different standards and different datum definitions that you 
have to have to comply with this data and the feds?
    Please?
    Mr. Nelson, do you want to go ahead and speak on that point 
and then carry out----
    Mr. Nelson. Not on that point.
    Mr. Hunter. Okay.
    Mr. Hatrick. Well, I will speak for the superintendents. As 
president of AASA, most of our members are rural, small 
district superintendents. It is crushing. And I think, frankly, 
it is overwhelming. It leads to people sitting around trying to 
figure out what is being asked and how can we report it and how 
can we get through this and also do all the other things we 
have to do. And that is why, I think, we don't have the 
standardization that we might like to believe exists out there.
    Mr. Hunter. Mr. Wilhoit?
    Mr. Wilhoit. I hear a lot of the rural folks talking about 
a need for them to reduce the tremendous burden on those staff 
people who are pulled in multiple directions carrying out very 
different jobs, being Mr. or Mrs. Everything in terms of those 
rural districts. They are now looking at ways that they could 
come together and share these kinds of resources.
    It is another example of where efficiencies in the system 
could be dealt with rather than each one of those individuals 
maintaining their own system and doing that kind of reporting. 
You could do it through some cooperative kind of work.
    Mr. Hunter. And, Mr. Nelson, you had a comment on the 
first.
    Mr. Nelson. Thank you. I was just going to refer back to 
the question about the use of a common technology to solve some 
of these problems. The question isn't whether the technology is 
available or should be put in place. But it is what it is 
trying--what problem it is trying to address, what data it is 
trying to collect.
    The financial aid program, for example, in this country, 
all the data in higher education must be transmitted 
electronically through a particular system. It seems to me, 
perfectly appropriate. It is working well. We provide the data 
that we think meets the reasonable standards for 
accountability.
    But it is the questions about what is going on in the 
classroom, outcomes that become really difficult. I like the 
analogy to the medical profession. I was a patient where I got 
to see a team working with me in front of me, looking at their 
checklist. What did we do wrong? What did we do right, 
including me in that conversation because medicine is a 
cooperative art.
    And so is education. To include a team of people around who 
know what they are doing with the student present, that is an 
appropriate measure of assessment. You want to know what is 
going on, a process which allows the student to hear from a 
team of faculty that are all teaching that student that year 
what they think of the work, what could be improved. This 
system isn't one that would be dictated by the federal 
government.
    It is something that ought to be in place as a model of 
assessment of student learning at every level of education in 
the country. It is something that we have been doing at St. 
John's for 70 years, since 1937. And it has remarkable affect 
because we have all that information.
    We can look at it. It is all narrative. It is not data 
collection. It is prose. But it is all shared with faculty 
talking to faculty, learning about the student together and the 
student hearing what that is and then responding in kind.
    Mr. Hunter. Okay.
    Chairman Kline. Gentleman's time is expired.
    Ms. Woolsey?
    Mr. Woolsey. Thank you, Mr. Chairman.
    Well, when No Child Left Behind was first advanced, my 
question to George Miller, who was our chair of this committee 
at that time, was--and I asked him point blank, ``George, why 
should my schools, who are some of the best in the nation, have 
to be burdened with proving how good they are?'' George was 
very patient with me.
    He said, Lynny--he is one of six people in this world that 
are allowed to call me Lynny. ``Even your schools will learn 
that low-income student populations are lagging behind.'' Well, 
you have to know I didn't believe it. Not my district. So I 
called my superintendents, my school superintendents.
    And after I promised I wasn't going to use the information 
for anything but my own--you know, my own input, to learn from 
them, they confirmed that George was absolutely right. And this 
is before we implemented No Child Left Behind. Now, after the 
implementation of No Child Left Behind, these superintendents 
and educators don't like everything about No Child Left Behind. 
And that is absolutely for sure. But they have all agreed that 
there was a need to acknowledge that there were students being 
left behind.
    So my question to you, Ms. Haycock, is that was then. This 
is now. Are the teachers, educators, administrators--in these 
lower-income schools--are they frustrated about the fact that 
now that we know this, that they are still being expected to 
bridge whether these kids are ready to learn when they enter 
the classroom? And what is your opinion of what we should be 
doing about this?
    Ms. Haycock. Well, certainly, Congresswoman Woolsey, there 
is no educator in America, to my knowledge, who would not 
prefer it if the youngsters who came into our elementary 
schools, especially those from low-income families, had really 
strong early childhood education. We all know that is a smart 
investment. We know it helps kids arrive at school ready to 
learn.
    But if you are asking the question, do educators now resent 
being asked, even when children don't have those support 
services, to still do their best to raise their achievement 
levels, I think there are some who do. But the vast majority 
thinks it now as their responsibility.
    Now, let me be clear here. You put the focus on that when 
you passed the law in 2001. The moment you take it off, their 
attentions will go back. So if you are asking me can we afford, 
now that they know that their low-income youngsters or minority 
youngsters are achieving at lower levels, can we afford to take 
that attention off, the answer is no.
    Mr. Woolsey. So all the way along the panel has talked 
about limited funding. So are teachers and administrators not 
expecting federal support to help the schools bridge that 
difference between what these kids come to school with and what 
they need? Besides, I don't think teachers resent having helped 
these kids. That isn't what I meant.
    Ms. Haycock. Yes.
    Mr. Woolsey. I think they might resent us for demanding 
they do more with less.
    And so, where do you see--so any of the rest of you, where 
do you see us investing appropriately in those with the most 
need?
    Mr. Hatrick. Preschool education, preschool education, 
preschool education.
    Mr. Woolsey. I hear you.
    Mr. Hatrick. If you want a level the playing field for 
children growing up in America, it has to happen before 
kindergarten because once kids arrive in kindergarten, we are 
involved in remediation. And I think there is just sufficient 
evidence out there about the power of Head Start to change 
children's lives.
    My regret is that, you know, even in my county, the Head 
Start program funds the education of 100 children. Now, our 
system funds a similar program--we can't make it quite as rich 
as Head Start--for about 300 more because we know--you know, 
Loudoun 3 years and running, is the wealthiest county in 
America.
    We know that being poor in Loudoun is even harder than 
being poor in some other places because there is this 
assumption that everybody comes to school ready to learn. And 
everybody doesn't. So preschool education, preschool education, 
preschool education.
    Mr. Woolsey. Thank you.
    Chairman Kline. Gentlelady's time has expired.
    Mr. Barletta?
    Mr. Barletta. Thank you, Mr. Chairman.
    Mr. Nelson, as the mayor of Hazelton, Pennsylvania for more 
than a decade--and I was a representative of Pennsylvania's 
11th Congressional District--I have had a unique privilege of 
forming strong relationships with local universities and 
community colleges in Northeastern Pennsylvania. But we heard a 
lot about how regulations have burdened schools.
    I know regulatory demands are burdensome, not only for 
university presidents, but also for students, especially those 
who are first generation college students, which make up a good 
percentage of the students in Northeastern Pennsylvania. Can 
you give us an example of how increased federal involvement in 
higher education via heightened regulation requirements has 
implicated students?
    Mr. Nelson. Well, I suppose there are a lot of things we 
administer under the financial aid program that affect the 
students directly. So whether they like it or not, they need 
debt counseling. Whether they like it or not, they need to fill 
out various forms and papers with all of that.
    And so, we have turned into an educational system, not only 
to develop our academic program, but to help people understand 
the financial world that they are living with when they take on 
the debt. That directly affects students. And, frankly, we 
think that it is good for students to learn those things.
    But another one that just--I mean, it happens to be the 
issue of the day on campus yesterday when I asked this question 
of a number of directors of various offices: the census. I 
thought that was once every 10 years. But it turns out there is 
sampling done every year. And that means that somebody has to 
track down these students in their dormitories or off-campus 
housing, get them to fill out the forms, and turn them back in.
    Well, it seems like a simple little thing. But if any of 
you have teenagers or young adults as children, you know that 
that is probably one of the most difficult jobs. And our task 
as a college is to track them down and get them to fill them 
out. But they then have to do that. I mean, it is just a couple 
of simple examples.
    Mr. Barletta. Can you identify any particular rules or 
regulations that make it difficult for schools to innovate or 
work together with each other and/or community partners to help 
increase student academic achievement?
    Mr. Nelson. Yes, I will tell you one that I am really 
worried about. And that is the credit hour regulations that are 
under consideration. There I worry that it may limit the 
ability to have collaborations.
    Any time you put a straightjacket on innovation, you run 
the risk that we can't change quickly and that we can't 
collaborate easily. I don't know a single college or university 
in the country right now that isn't undertaking a conversation 
about the sustainability of the operating model that they have 
been working with up to and through the financial disaster of 
late 2008.
    They need the freedom to adapt quickly, to innovate, and to 
collaborate. And every school will have its own ways of doing 
that. But I think anything that can be done to be careful that 
we don't burden, particularly those programs that affect the 
academic life of the college, would be most welcome in these 
difficult financial times.
    Mr. Barletta. Thank you, Mr. Nelson.
    I yield back the balance of my time.
    Chairman Kline. Thank you.
    Mr. Tierney, you are recognized.
    Mr. Tierney. Thank you, Mr. Chairman.
    And thank the witnesses for their testimony today and their 
enlightenment.
    I think we are always knowledgeable about how important it 
is to take a closer look at the requirements that we have out 
there and try to get that balance between making sure that we 
get the data and make sure that the taxpayer gets their value 
and the families get what they deserve, what they have coming 
to them and to get rid of anything that is not necessary, that 
is overly burdensome on that basis. So I know that there is 
some work being done out there.
    And in the Higher Education Opportunity Act, Mr. Nelson, we 
charged the advisory committee on student financial assistance 
to conduct a higher education regulation study to determine 
whether any current or future regulations were duplicative, 
were no longer necessary, were inconsistent with other federal 
laws, were overly burdensome. Do you think that is a good way 
to go about it? Do you think that provision makes sense?
    Mr. Nelson. I am sorry. Do I think what provision?
    Mr. Tierney. That the provision that I am talking about 
charging the advisory committee on student financial assistance 
with conducting a regulation study to determine and identify 
all those regulations they may think are overly burdensome or 
duplicative or whatever.
    Mr. Nelson. I think these are very important studies to 
undertake. I know that it has been a problem for people to 
implement the Section 1106 of that act, which provides for the 
National Research Council of the Academy of Sciences to 
determine amount and scope of federal regulations as well. And 
it seems to me that funding of that might go considerable 
distance along this line.
    And I should say that this committee led the way in asking 
the department--or determining that the department should not 
collect national unit record data. But the department is still 
funding these efforts at a state level. That is a source of 
funding, it seems to me, that could help us get there.
    Mr. Tierney. Good. Well, that is helpful. I mean, I am at a 
loss as to how else we might attack this problem, other than to 
have some qualified entity go out there and identify them so 
that we can then start knocking them down. So I am glad to hear 
you say that we have started along that path in that last 
reauthorization.
    Any other ideas you have?
    Mr. Nelson. Yes, I am sorry. My ears aren't functioning 
fully today. But I, maybe, hear the particulars of that 
question. I apologize.
    Mr. Tierney. Which one? The one I am saying now or the past 
one?
    Mr. Nelson. I heard that.
    Mr. Tierney. Okay.
    Mr. Nelson. So go ahead.
    Mr. Tierney. All right. Any other ideas that you have for 
other ways that we may try to skin this cat, besides having a 
qualified entity go out there and identify them and so that we 
can knock them down, please let us know.
    Mr. Nelson. Yes. Yes. The main thing that I had in mind 
when I suggested in my testimony a kind of pay-go system is for 
every new regulation that may come about, let us take a look 
and see if we can't--even if it can't remove some others. And 
one measure of that might be to look at the burden hours of the 
new regulation and then to see if we can't eliminate an equal 
number or more burden hours of the other.
    Mr. Tierney. Thank you.
    Mr. Wilhoit, I am looking here at this little review on 
that. In 2004, we did take some steps to reduce the paperwork 
burden on states and districts. We included a paperwork 
reduction pilot into the law that would allow the secretary to 
waive up to 4 years of statutory or regulatory requirements, 
except the civil rights requirements, that link to excessive 
paperwork or other non-instructional burdens.
    So I look at that, and I see that no states have applied 
for that yet. Can you share with me why or what the barrier or 
the impediment has been for states to apply for that waiver?
    Mr. Wilhoit. I think that the states at this point are 
operating under this--I think the very fact of the procedure to 
go through to get those is lengthy, complex, and difficult. It 
is almost like applying another set of waivers--or regulations 
to the process.
    And I think the real issue here is we should be thinking 
about a relationship between states and the federal government 
where a waiver is not the avenue for innovation. And we need to 
be thinking about how you build into this strong guidance and 
direction and clear statements from the federal government 
about what must be done, but build into the law an expectation 
that states will learn, grow, and improve through the process. 
I think the very process in itself is very burdensome for a lot 
of folks.
    Mr. Tierney. Do you think the idea of such a pilot is 
worthwhile if we got rid of the burdensome application process?
    Mr. Wilhoit. Yes. And I think even beyond that, if in 
reauthorization, if it occurs, and I think it should, we could 
think about a different kind of relationship where states would 
be expected to come forward with new designs and innovation, 
coming out of the learning that is going on in the states.
    Mr. Tierney. Thank you.
    You know, for any one of you that might want to answer 
this, I am always struck by educators telling me how many 
burdensome requirements they have and tests and things of that 
nature and then throwing it all up on a monthly calendar and 
finding out that so many of them are state regulations on that.
    Mr. Wilhoit. It is true.
    Mr. Tierney. So they are all angry at No Child Left Behind, 
or they are angry at the federal government. Testing for 
Massachusetts--they put up a calendar of tests almost every day 
of the month, and only one of them was a federal test on that. 
What can we do to sort of get the states to also take a look at 
this and try to work together, both the federal level, state 
and the district levels to sort of get these things down? We 
can do our job. But how do we work together cooperatively with 
those other levels of government to make sure it all comes 
down?
    Mr. Wilhoit. There needs to be----
    Mr. Hunter [presiding]. The gentleman's time is expired.
    If you could get that answer to him at a later time or for 
the record.
    Mr. DesJarlais, Dr. DesJarlais is recognized for 5 minutes.
    Mr. DesJarlais. Thank you, Mr. Chairman.
    The question was asked earlier, what are the top concerns 
of teachers that you have been talking to in your areas. And we 
heard from Ms. Haycock. I wanted to pose that same question, 
what would be the top three concerns that you are hearing from 
teachers.
    Dr. Hatrick, could you start?
    Mr. Hatrick. Well, right now? One of the top concerns we 
are hearing is frozen compensation. Another one has to with 
enlarging class size, as we have less and less money to spend 
on educating children. And probably the third one has to do 
with, you know, kind of, just an overall frustration with the 
reporting requirements that are put on teachers by us locally, 
by the state, and by the federal government.
    Mr. DesJarlais. Okay. Thank you.
    And, Mr. Wilhoit?
    Mr. Wilhoit. I hear them talk about their inability to meet 
the demands that we are putting on them right now and a need 
for a lot more help than we have been giving them. We need to 
redesign their pre-service and their professional development 
opportunities to be much more productive. I hear them talk 
about the need for strong leadership at the building level and 
in the form of a principal who knows instructions, know how to 
bring a team together and work together.
    I hear, on this issue, more concern from the teachers of 
special needs students and those with ESL--students with 
English language needs in terms of burden and intrusion in 
life. I don't hear it as dramatically from mainstream kind of 
instructional people.
    Mr. DesJarlais. Okay.
    And, Mr. Nelson?
    Mr. Nelson. Well, I am hearing the questions at a different 
level altogether. But I would say that the number one concern 
is the work to keep the federal government from trying to 
determine appropriate measures of accountability in the 
educational environment. So what I am really talking about is, 
as a liberal arts college, we are not trying to tell our 
students what they should think. We are trying to give them 
very difficult material to work with so that they can learn to 
ask the appropriate questions and free themselves from 
conventional opinions and from directives from above.
    So the last thing I want to do is encourage any kind of 
system that suggests we are trying to teach to some norm. And 
these things are coming at us because of federal requirements 
through the accrediting agencies who probably have spent more 
time on that than any other. So I will just stop with the one 
for now.
    Mr. DesJarlais. Okay. Thank you.
    And, I think that you touched on several of the concerns 
that I am hearing from the teachers back in my district. As a 
primary care physician, I have the opportunity to talk to 
teachers regularly, both as a patient and to hear their 
concerns when we are just visiting in the exam room.
    And certainly, the frustration I am hearing is that they 
are not able to teach what they were trained to do. Instead, 
they are having to teach to standardized testing. Also, the 
lack of discipline was a very common concern and leadership in 
their principals.
    Mr. Nelson. Yes, yes.
    Mr. DesJarlais. And also, I think that there is just, 
maybe, a general loss of self-esteem and pride in their 
profession because they didn't go into teaching to get rich. 
They went in because they care about educating. And I think 
there is a lot of frustration there.
    So anyway, as we look at the Department of Education now 
passing three decades of service, federal spending on education 
has increased 375 percent since its inception. And yet, our 
achievements in reading, math, and science remain pretty flat.
    So, you know, I find it interesting that my colleague from 
Indiana, Dr. Bucshon's comments, seem to hit home with a lot of 
folks. And I wonder if I could yield about 2 seconds to Dr. 
Bucshon to ask him how much did you rely on federal regulations 
to inspire you to improve cardiothoracic surgery.
    Mr. Bucshon. Thank you. Very minimal. And that is the point 
I was trying to get across, is this was driven within our own 
profession----
    Mr. DesJarlais. Exactly.
    Mr. Bucshon [continuing]. Outside of government because, as 
surgeons, just as educators want to see their students do well, 
we want to see our patients do well so there is pride in the 
profession. And we have taken it on ourselves to internally 
improve what we are doing because ultimately we want better 
outcomes.
    I yield back.
    Mr. DesJarlais. Thank you, Doctor.
    And I will yield back the balance of my time, with that 
lesson.
    Mr. Hunter. Thank you.
    Mr. Bishop is recognized for 5 minutes.
    Mr. Bishop. Thank you, Mr. Chairman.
    Mr. Nelson, first off, congratulations on 20 years as a 
college president.
    Mr. Nelson. Well, thank you.
    Mr. Bishop. Not easy to do.
    And thank you all for your testimony.
    I am going to assume that you are familiar with the 
financial aid implications of H.R. 1 that was passed out of the 
House a week ago Saturday.
    Mr. Nelson. If you tell me what it is, I will probably 
remember that I am familiar with it.
    Mr. Bishop. Okay. It eliminates SCOG, one of the three 
campus-based programs.
    Mr. Nelson. Okay. Thank you.
    Mr. Bishop. It cuts Pell grant maximum by 15 percent.
    Mr. Nelson. Yes.
    Mr. Bishop. So let me ask this question. If the federal 
government were to come to NAICU members and say, we have a 
deal for you, we are going to cut the largest grant program by 
15 percent, we are going to eliminate another grant program 
that has existed since the late 1960s, and 2 years later, we 
are going to phase out the campus-based student loan program, 
but don't worry, we are going to relieve your regulatory 
burden, is that a tradeoff that NAICU members would embrace?
    Mr. Nelson. I don't think there has been any choice but 
that they would choose not to cut the Pell grants, not to cut 
SEOG, not to cut federal work study, subsidized loans. These 
are critical to serving the students' interests in each of our 
schools. And those students' needs have grown in the last 3 
years. So the number of Pell-eligible students at St. John's 
has grown by 30 or 40 percent in just the last year-and-a-half 
because of the family burdens out there.
    Mr. Bishop. Sure. So----
    Mr. Nelson. And we really need these funds to help them 
have the access and opportunity to study.
    Mr. Bishop. I thank you for that. So you would urge the 
Congress to rethink those cuts?
    Mr. Nelson. I would.
    Mr. Bishop. Thank you. You made a comment in your testimony 
about how the regulatory process is intruding, essentially, on 
academic freedom, on what schools teach and who teaches them. 
Are you referring there specifically to a federal intrusion, or 
is it more so an accreditation intrusion or a state intrusion?
    Mr. Nelson. What I see is there have been state intrusions 
of this kind that we have dealt with. And I don't see a 
terrible problem at the state level right now in Maryland. But 
at the federal level, the--there were attempts earlier on to 
have federal regulations control outcomes assessments and to 
try to get us to measure and compare our measurements with 
other schools. Those were beaten back as being heavy-handed and 
intrusive.
    But at the same time, they have moved to pushing that 
weight onto the accrediting agencies. So that question that I 
raised earlier that the accrediting organization is required to 
assure that each of our institutions do the following is a kind 
of federalized approach to that sort of thing.
    Mr. Bishop. Yes.
    Mr. Nelson. So it is coming through the accrediting 
agencies.
    Mr. Bishop. Okay. Because the reason I ask is I used to run 
a college.
    Mr. Nelson. Yes.
    Mr. Bishop. And I found that it was more state regulation, 
that we were--for example, had a limit to the number of courses 
that could be taught by adjunct faculty. That was imposed by 
the state, not by the federal government. We had a limit to the 
number of courses, remedial courses, to which we could assign 
academic credit, again, imposed by the state, not by the 
federal government.
    Mr. Nelson. Yes.
    Mr. Bishop. But, okay, thank you for clarifying that.
    One more question for Dr. Hatrick. You said preschool, 
preschool, preschool, music to my ears since I have been 
married to a woman who runs a preschool program of her own for 
32 years. H.R. 1, the bill I referred to, cuts $1.1 billion out 
of funding for Head Start, would disenfranchise 218,000 
students who would otherwise be eligible for Head Start. Am I 
safe in assuming that you would consider that to be a cut that 
we ought to reconsider?
    Mr. Hatrick. Absolutely.
    Mr. Bishop. Thank you. Appreciate it.
    I yield back the balance of my time.
    Mr. Hunter. Thank you.
    Mr. Walberg, you are recognized.
    Mr. Walberg. Thank you, Mr. Chairman.
    And thank you, to the panel, for being here today.
    Just to go through some of the figures that have been laid 
out, I know, at least a couple times already, since 1965, 
American taxpayers invested more than $778 billion on federal 
programs for elementary and secondary education. Reading and 
math assessment scores for 17-year-olds remain largely 
unchanged from 1973 levels. And then I read a recent report 
that indicates the regulations to implement one section of No 
Child Left Behind increase state and local governments' annual 
paperwork burden by over 6.7 million hours at an estimated cost 
of $141 million.
    All of that, to ask this question of any of you, about your 
particular entities. How much in funding does it cost your 
agency, school, college, organization to comply with the rules 
and regulations imposed by the federal government? And, I 
guess, I would say how much staff time is spent on complying 
with No Child Left Behind, IDEA, or other federal programs? And 
then what positive impact has all of that produced, percentage-
wise, in your program?
    Mr. Hatrick. We estimate, in Loudoun County Public Schools, 
that it takes the equivalent of six full-time professional 
staff to meet all of the reporting requirements for various 
federal--and I would include some state agencies there as well. 
So to the earlier question, I don't know what happens in a 
rural district where there just aren't six staff to devote to 
this.
    I think it gets pushed down to the teacher. I think that is 
the ultimate answer. Where you don't have central office staff 
to provide all this data, the people who wind up providing it 
are the people who are supposed to be teaching the children.
    Mr. Wilhoit. I would like to get more specific numbers to 
you. But if you were to look at most state agencies today, you 
will find that the largest staff allocations are in federal 
food and nutrition, Title I, and IDEA. And, of course, those 
resources are provided as oversight functions from the federal 
government. So that makes the work that those people are 
engaged in very important.
    One, they need not--it pulls them into isolated kinds of 
functions. And it makes it difficult for a commissioner to use 
those resources in other ways.
    Secondly, the demands on state education agencies over the 
last few years have been moving away from compliance to more 
assistance in service role. And it is difficult to do so when 
you have staff locked up in those other functions.
    Ms. Haycock. I, obviously, can't add much detail on the 
cost, because my organization isn't a part of this. But I do 
want to say something about the results, because I think people 
have gotten a false understanding of what has occurred and what 
hasn't.
    Remember, the focus of the Elementary and Secondary 
Education Act is largely on elementary schools, a little bit on 
middle schools, and almost no attention to high schools at all. 
If you look at the data on elementary schools, there have been 
significant improvements. That is especially true in the last 
10 years, where you are seeing sharp improvements for all 
groups and record performance and the narrowest gaps we have 
ever had. But it has been true since the 1970s.
    Where we are losing it, frankly, is in the high schools. 
That is where achievement has been relatively flat. It is up a 
little bit in math, but relatively flat in reading. So it is 
not that these dollars have had no impact. They clearly have. 
We are making----
    Mr. Walberg. Excuse me, just jump in there. But doesn't 
that suggest--I mean, if we are indicating the growth at the 
elementary level and it is not carrying through at the 
secondary level----
    Ms. Haycock. Yes.
    Mr. Walberg [continuing]. Doesn't that make the elementary 
level suspect, with all of the dollars, all of the regulations 
all put in place to try to bring it up, ultimately, if the 
outcome--so Mr. Nelson receives a new student that is capable, 
ready to start the process at the higher ed.?
    Ms. Haycock. It is, I think, not wrong to think that there 
is a problem in our high schools because we are not translating 
the better prepared students we are receiving from elementary 
schools into better prepared students for colleges or for the 
workforce. But that does not mean that we are not making 
significant progress in our elementary schools on every 
measure, both on state assessments and on the national 
assessment of education progress. There are much stronger 
results today than there were 30 years ago.
    So, again, it is not that we know nothing about how to 
improve achievement. We have got, actually, a fairly strong 
record of improving achievement. What we are not doing as well 
at is translating that into growth at the high school level.
    Mr. Hunter. Thank you. The gentleman's time is expired.
    Mr. Kildee, you are recognized.
    Mr. Kildee. Thank you, Mr. Chairman.
    Ms. Haycock, the requirement for disaggregated data is a 
mandate of No Child Left Behind. Is this requirement achieving 
what it was intended to do? Is it playing a significant role in 
improving education? Can we make it more useful? And to what 
degree are the sub-groups that this was intended to make sure 
were not neglected, are they gaining from that disaggregated 
data mandate?
    Ms. Haycock. Certainly, the requirement, not just to report 
the data by group, but actually to improve the results by 
group, is probably, without question, the most important 
requirement of No Child Left Behind. There is no question, I 
think, that that attention has grabbed a hold of the attention 
of educators and focused their energy on improving, not just 
the overall average, but of all groups of students. And to take 
that away would be hugely destructive.
    We may want to choose to formulate the requirements 
differently to look both at growth and at status in future 
laws. But to turn back the clock and say, ``No, no, we weren't 
serious about that, we are really going to go back to looking 
at averages,'' would be devastating.
    Your question is, did we make progress? During the last 10 
years, all groups of kids at the elementary level have gone up. 
The groups of kids that were the particular focus of this law 
have gone up somewhat faster than those who were not.
    That means you are making a difference. Is it fast enough? 
Absolutely not. Is it good enough? Absolutely not. Do we have 
to turn it around at the high school level? Absolutely. But one 
thing we know from the history of American education is that 
when we stop focusing on something, we stop making progress.
    Mr. Kildee. So perhaps, or hopefully, 10 years from now, we 
will find out that this did play a significant role in those 
who were being neglected.
    Ms. Haycock. Yes. There is no question we know that now.
    Mr. Kildee. Is there much gaming of the system or attempts 
to game the system when we measure these students?
    Ms. Haycock. Yes. At virtually every level, there have been 
attempts to game the system. And there have been--and, frankly, 
there were imperfections in the law itself that encouraged 
that. There was no incentive, for example, for states to raise 
standards or to have high standards. If they lowered them along 
the way, they made their schools better. Those are the kinds of 
things that, fortunately, the work of the states in developing 
common standards have helped with. But those are the things we 
need to fix this time around as well.
    Mr. Kildee. Well, I certainly appreciate your answer. I 
happen to agree with it. We worked very hard on this. And we 
intended that this really would make a difference for these 
students. And glad to hear at least most schools are trying to 
do it.
    Ms. Haycock. I think that is right.
    Mr. Kildee. And we should make sure that they continue to 
do that. Thank you very much, Ms. Haycock.
    Ms. Haycock. Thank you.
    Mr. Hunter. Mrs. Biggert is recognized for 5 minutes.
    Mrs. Biggert. Thank you, Mr. Chairman.
    I think this question probably goes to Dr. Hatrick and Mr. 
Wilhoit, if I am pronouncing that right. I don't know. But I am 
concerned about the Race to the Top and wanted to know a little 
bit about the burdens that that may be creating.
    And I know, Dr. Hatrick, I don't think that Virginia has 
not applied for Race to the Top. I know that there is a lot of 
information going to all the states. And are you implementing 
some of the things that are in there? Because this is said to 
be the--you know, the precursor to how we will do K-12 
reauthorization. A lot of that will be in there.
    Mr. Hatrick. Are we implementing--I am sorry. I had a 
problem hearing.
    Mrs. Biggert. Some of the states are--actually, even though 
they did not take--or be in the Race to the Top, they were 
awarded the funds for it and all that. But many of them are 
implementing the kinds of ideas that are in there. Is Virginia 
looking at that at all? Or are you just--so you don't have to 
worry about the regulation?
    Mr. Hatrick. No, you know, we try to look at everything 
that is going on. If people have good ideas, we are not at all 
shy about asking to borrow them. And so, I think that, you 
know, probably that has been a positive aspect of Race to the 
Top in that it has provided incentives for people to think 
differently. That said, I am not sure the competitive nature of 
Race to the Top is going to help American education.
    Mrs. Biggert. And so, you did not apply for it?
    Mr. Hatrick. No.
    Mrs. Biggert. Okay.
    Mr. Wilhoit?
    Mr. Wilhoit. There was a tremendous response to Race to the 
Top. I think it was a result of some pent-up energy that 
existed in states, a desire to move in some areas. And it gave 
an avenue to do so.
    With 12 states receiving that money and a number of other 
states who had taken pretty significant action in the states to 
build consensus to get a positive rating and to be competitive, 
in a way, has caused those states to commit themselves to some 
reform initiatives that they are now finding difficulty 
resourcing. And so, I think you will find that continued 
pressure on the states.
    Are those things that should be done? Probably so. And yet, 
I think the dilemma is going to be now that we have stepped 
back, engaged lot of people in a state community around this 
issue, gotten commitments from a lot of districts to move 
forward, they are experiencing some pressures to make sure they 
can resource it in an adequate way. So I think those pressures 
will continue.
    The other pressure on them, I think, for those that were 
funded, right now, is the multiple reporting that is being 
asked of them from--the department has been very cooperative in 
interacting with the states. But we also have reporting from 
OMB and from the attorney general's office, just multiple kinds 
of pressures on folks for accountability purposes.
    Mrs. Biggert. So that makes a lot more. And is there a 
reduction for other reporting if they are working in that?
    Mr. Wilhoit. Not yet.
    Mrs. Biggert. Do you think that this will be used as far as 
the reauthorization of K-12?
    Mr. Wilhoit. The Race to the Top program?
    Mrs. Biggert. Uh-huh. Uh-huh.
    Mr. Wilhoit. There is no doubt in my mind that that has 
changed the agenda in the states. In fact, it is kind of 
interesting to watch the attention being paid to the Recovery 
and Reinvestment Act and on Race to the Top and this sort of 
increase and focus on those issues and the guiding principles 
around that program in the four areas of reform. And that 
almost superseded their attention to implementation of No Child 
Left Behind.
    We are at a--brings the issue to the table again about 
reauthorization. We are creating a dynamic environment out 
there where people are chasing reform. And yet, we are 
operating under a system that we created several years ago.
    Mrs. Biggert. Thank you. Thank you.
    And then, Mr. Nelson, it seems like we hear so often that 
kids are going to college and they are not ready and they have 
to have remedial. And there are so many--the numbers are 
actually staggering how many students are having to go through 
remedial education when they get to college. Is there data 
collection for this? Are the universities really, you know, 
looking into this so that they can go back to the states or go 
back to the schools and make sure or see how that can be fixed?
    Mr. Nelson. Sure. I ask high school teachers all the time, 
please teach grammar. We don't get it coming out of our high 
schools now. And it shows. But I think the important thing here 
is that there has been greater access to colleges and 
universities among a broader and wider population. This is a 
good thing. But it often brings with it, therefore, a broader 
group of students, many of whom are less well-prepared.
    Many colleges are responding to this by just sucking it up 
and preparing--and providing those courses, particularly at the 
community college level. Many other schools are sending the 
students to get those courses, post-secondary educational 
courses, to get them. And others are talking with state school 
administrators about how we can work together to have students 
better prepared for higher education.
    Mrs. Biggert. But is there data collection?
    Mr. Hunter. The gentlelady's time is expired.
    If you wouldn't mind getting back to her on the record, 
too.
    Mr. Payne is recognized.
    Mr. Payne. Thank you very much.
    Our state lost out on Race to the Top. You remember there 
was some question whether the governor was interested in it, 
and some wrong information was sent. And so, we lost $800,000, 
I think it was, to the dismay of many of us.
    But anyway, prior to No Child Left Behind, accountability 
in education--in the educational system was vague and 
unenforced. States were able to tout students' success while 
hiding actual student performance data and ignoring achievement 
gaps. The disaggregation of data shed great light on the 
growing achievement gaps in this country and called for 
solutions to provide an equal access to quality education for 
all, regardless of economic background, race or ability level.
    Now the national assessment of educational progress, NAEP 
data, showed that the achievement gap in your state of 
Virginia, Dr. Hatrick, has narrowed by race between 2003 and 
2007. Earlier, Ms. Foxx asked if there was anything that you 
are doing now that you wouldn't be doing if it were not 
required by the federal government. Dr. Hatrick, would Virginia 
still be focused on educating all students equally, advantaged 
and disadvantaged, if the required data disaggregation had not 
shed light on the achievement gap?
    And in many instances, as a matter of fact, many school 
systems did not like No Child Left Behind because, even though 
a school system may show that it is sending a large number of 
students to higher education, once you did the disaggregation 
you found that there were really a group of students that were 
definitely being left behind. And it did shed light on this 
situation. So I wonder would Virginia still be focusing--and 
actually, there have been achievement because of the--and I 
wonder whether the achievement would have occurred had it not 
been for the disaggregation that was required by No Child Left 
Behind.
    Mr. Hatrick. Well, Congressman, when I answered the 
question, I wasn't answering for Virginia. I was answering for 
Loudoun County Public Schools. We actually disaggregated and 
reported disaggregated data before No Child Left Behind was a 
law. We realized, because of something I referenced earlier, 
when you are as wealthy and have as high a socioeconomic index 
as we have, children who don't have those same opportunities 
really are in great danger of not succeeding.
    So I think it is very fair to say that probably one of the 
most important change outcomes of the law has been the 
reporting--of disaggregation of data and reporting that. And I 
think it would be fair to say that had the law not been passed, 
practices would not have changed.
    We realized it was too easy--in a place like Loudoun 
County, it was just too easy to be like woebegone. You know? 
And let the overall wonderful performance on average of our 
students mask the issues that we faced. As far as I am 
concerned, that is the signal strength of the law.
    Mr. Payne. Great.
    Anyone else have any comment on that? You all agree?
    Mr. Wilhoit. There is no doubt that No Child Left Behind 
changed the conversation in the country and changed the 
emphasis. And I think in this area, as you think about moving 
forward, you should not abandon this focus on every child and 
adequate transparency in the system in terms of reporting and 
holding folks accountable.
    I think you have an opportunity--now that lots of changes 
have occurred, you have an opportunity to begin to think about 
a new gap definition. And that it is not the difference between 
students in a particular school or within a school district. It 
is the difference between where that student is and where they 
need to be to be successful.
    And I think that is where states have been reflective in 
the last few years about coming to some agreement around what 
students should know and be able to do to have future success. 
And now we can leverage that in terms of reporting actual 
student progress against those targets that we have put in 
place.
    Mr. Payne. Thank you. Thank you very much.
    Mr. Hunter. Thank the gentleman.
    With the witnesses' indulgence, we are going to go through 
one more round of questioning at 3 minutes. And I would like to 
start with the ranking member. Mr. Miller is recognized.
    Mr. Miller. I would hate to leave this hearing with the 
impression that somehow there is not an ongoing effort to try 
to rationalize regulations. It is interesting that other 
administrations by the party--they don't seem to pick up much 
steam.
    I mean, we have already talked about the paperwork 
Reduction Act. Nobody really participated, even though there 
was the promise of long-term relief for short-term intensity of 
reporting, what have you.
    Ed-Flex, 13 governors that came up with nothing, except 
George Bush, who came up with the idea that he was going to 
disaggregate the data for every kid in Texas. Now, the data 
was--the books were cooked a little bit in Houston, but what 
the hell.
    So apparently it can't be left to the party. I know that 
this spring there is a conference on IDEA with the department 
on trying to rationalize and make better the regulations under 
IDEA. And I hope that people will participate in that.
    Just on another point I want to not leave the hearing with 
the question on the unit hour, Mr. Nelson. You know, in 1957, I 
appreciate what Justice Frankfurter said. In 1957, families 
weren't going deep into hock to pay for an education. Most 
families weren't. Middle-class families certainly weren't.
    You know, there was the G.I. bill. But there wasn't the 
Pell grant. There wasn't a loan industry out there at that 
time. We have changed that a little bit here, fortunately.
    But the fact of the matter is I think you have to know we 
are really purchasing something of value with borrowed money, 
either borrowed from the taxpayers or borrowed from the 
families. And you now have an entry of a whole series of 
colleges that come to their creation with a business plan as 
opposed to an education plan, in some instances.
    So when we looked at accreditation last year, we see 12 
units at a $6,000 premium per student, being offered that when 
we go back to the accreditation--we went back to the process 
twice with the inspector general--we see that 12 units was 
offered as graduate work. It was determined it wasn't the 
quality of upper division requirements. In fact, they weren't 
so sure it should have even qualified for lower division.
    But somebody was out $6,000 of their money for that 12 
units in 5 weeks. But they have a plan that says every 5 weeks, 
you have got to roll these students over so you can get the 
units.
    So, you know, you don't want us telling you what to do. 
Well, the university community better start taking 
responsibility for what it is they are presenting to families 
and students who are going into debt and the taxpayer that is 
going into debt to provide his education, what is it that is 
being offered. I am a big fan of the great book series, big 
fan. But what is it that is being offered here in terms of 
value?
    And you could argue the great book is priceless. But it is 
a real serious issue because people--especially when you have a 
completion and attainment rate that is very worrisome where you 
end up with no certificate, no degree, no credential, except 
debt. And that is happening, as we now see these figures--you 
know, because of reporting, we start to see what is happening 
across various segments of the higher education community.
    This is a very worrisome problem because when I went there, 
it was $45 a semester for the whole law school. Okay? That 
wasn't a problem. But it is today. And I just wanted--this 
isn't the place for that discussion. But it is not because we 
are just wandering around looking to stick our nose in people's 
business. But we have people who are ending up with a massive 
amount of debt and no education. And I just want to put that on 
the record.
    Thank you very much, Mr. Chairman. Thank you.
    Mr. Hunter. Thank the ranking member.
    And I think when you were paying $45, I wasn't born yet. I 
think it was a long time ago.
    Mr. Miller. Very----
    [Laughter.]
    Mr. Hunter. I would like to ask one last question, going 
back to something that is not very exciting, but data, again. 
When you are looking at data--and I know we are not supposed to 
ask questions we don't know the answer to, as Mr. Andrews would 
probably tell me. So I am getting into hot water here.
    But who, in you all's mind, should be the one to determine 
the standard for the data that is needed or the data about the 
data, the meta-data, if you would? Right?
    Who do you see doing that, the states deciding each for 
themselves and then the federal government having to work 
through whatever standard they recognize? Or would this be 
where there would be a role for the federal government to say, 
hey, here is the standard, here is what we are going to do, we 
are going to bring an SAP or Oracle or whoever, and we are 
going to make sure that everybody's data is just the same and 
we are all asking for the same thing?
    Mr. Hatrick. I think I would go back to the comments I made 
about data quality. I think you have got to get a mixed group. 
It has got to be the practitioners who are going to have to 
provide the data. It has got to be the regulators who know why 
they want the data. And there has to be conversation between--
communication between those two people.
    Right now, I think a lot of what is happening is somebody 
is talking, and nobody is listening. Or somebody is listening, 
and nobody is talking. I think we have got to get everybody 
around the table and say, first of all, why are we collecting 
this data, what do we--and what will the outcome be. Is the 
outcome to publish a fancy report? Or is the outcome to improve 
education? And that takes the practitioner and the regulator 
working together.
    Mr. Hunter. But technically, though, the data has to be 
standardized in some way. I mean, you would have to have a 
place to--you are going to store it somewhere. It has got to be 
accessed. So who decides what that is?
    Obviously, if you have something--like the NFL has great 
data kept, by the way, because DOD is using the NFL's data 
ability because they have stats on every player from wherever 
back to when they were 3 years old and played Pop Warner, 
right?
    But the way that they do that, it is obviously ruled by the 
NFL. So who decides that? I mean, who--because what you said is 
true, Dr. Hatrick. But who decides what the standardized data 
form is going to be? Is that the state?
    Mr. Hatrick. I think reality will be he who pays gets more 
voice.
    Mr. Nelson. I think it may depend on what the issue is. 
There are all sorts of accountabilities for different laws 
where it would be quite appropriate for that data to be 
collected by the federal government, by the state government.
    But when you are talking about matters of achievement in 
the classroom, it seems to me, that in higher education, it 
would be the accreditors. I think that working together with 
our peers, we have got a pretty good sense of things that work 
and things that don't work. And there is a lot of data that is 
gathered for that purpose. That is where I would put that.
    Mr. Hunter. Thank you.
    Mr. Wilhoit?
    Mr. Wilhoit. The issue of data collection has to--I agree, 
would require coordination among all federal, state, and local. 
But I do think there is a unique responsibility for states to 
come together to bring commonality of reporting from all of 
those local sites. And that requires standard definitions. And 
it requires some sense of agreement around the elements to be 
collected.
    I think the federal government, though, has a 
responsibility to say to the states that in order for you to be 
accountable for the use of resources, we need these kinds of 
data. And it is your responsibility, states, to build this into 
the reporting system. And it is a responsibility for both of us 
to work a system design that would allow that information to 
come up as efficiently and as effectively as possible out of 
the state systems.
    I think there is also this horizontal conversation that 
needs to go on between--among states. It doesn't make sense 
that we all do this separately under different assumptions and 
different definitions. And we are beginning to work together 
across the states to make sure there is more commonality in 
that reporting.
    I think at the federal level, there is a partnership role. 
This is a proposition that needs support in the short-term and 
in the long-term in terms of resourcing. There is this 
federal--as I said, a federal interest in making sure the 
information coming to you is in line with law and is providing 
you the information you need. And so, it needs to be built into 
the system.
    I think there are privacy rights that are a big part of 
this conversation. We need no information coming from beyond 
the district level in terms identifiable information. We need 
systems around FERPA resolved so that we can collect important 
and relevant information, but not in an individualized way from 
individual students, which brings the local community back into 
this conversation.
    But there is a lot of conversation around this, and I think 
something that we would encourage continued interaction so that 
all of us can come together to resolve this issue. We certainly 
need a much better system than we have right now.
    Mr. Hunter. Thank you.
    With that, I would like to thank the witnesses for taking 
time to testify today. And there being no further business, the 
committee stands adjourned.
    [An additional submission of Chairman Kline follows:]

                                                    March 15, 2011.
Hon. John Kline, Chairman,
Committee on Education and the Workforce, U.S. House of 
        Representatives, 2439 Rayburn House Office Building, 
        Washington, DC.

Re: Federal Reporting, Data Collection and Mandates and their Impact on 
        Student Achievement
    Dear Chairman Kline: In response to your request during the House 
Education and the Workforce Committee Hearing held on March 1, 2011 on 
federal reporting and data collection requirements, federal mandates 
and their perceived impact on achieving the intended goals of federal 
programs, the National School Boards Association (NSBA), representing 
14,500 local school boards across the nation, is pleased to provide you 
with additional information.
    As you heard from many of the witnesses during the congressional 
hearing, educators, including local school board members, remain 
committed to the goals of providing high quality educational services 
to all students and to fair and accurate accountability measures. 
However, local school board members report that the increasing numbers 
of federal mandates and reporting and data collection requirements are 
too burdensome on local school districts and have little real impact on 
improving teaching or learning.
    In view of your strong interest in examples of such federal 
requirements and mandates, through the use of an informal survey, NSBA 
requested a sample of local school board members to solicit comments 
from their own local program officials regarding current federal 
requirements and their perceived impact on improving student, teacher, 
or principal performance, as applicable.
    This initial informal survey response reflects the views of local 
officials from 62 school districts from urban, rural, and suburban 
areas with a broad range of student enrollments and equally diverse 
populations. Our preliminary review of the informal responses suggests 
great frustration among school district officials regarding many of the 
current federal reporting requirements and mandates. However, even more 
revealing by this informal survey is that when asked what impact these 
federal requirements have on improved performance, their responses 
indicate the following:


----------------------------------------------------------------------------------------------------------------
                       Requirement                           High/good/some impact         Little/no impact
----------------------------------------------------------------------------------------------------------------
Data Collection.........................................                      22.9%                       76.0%
Federal Mandates........................................                      48.2%                       51.7%
Reports.................................................                      35.3%                       64.7%
----------------------------------------------------------------------------------------------------------------

    We have attached a summary of the specific reports, data collection 
requirements, and federal mandates identified by the respondents and a 
summary of their rationale for eliminating the requirement. Our 
analysis of this data will continue.
    You will note that these requirements are related to specific 
programs such as Title I, have evolved from the last reauthorization of 
the Elementary and Secondary Education Act (ESEA), as the No Child Left 
Behind (NCLB) Act, or are related to Special Education Services under 
the Individuals with Disabilities Education Act (IDEA).
    NSBA recognizes that the information we are providng is preliminary 
and anecdotal. However, a review of the specific reporting requirements 
and mandates identified by these local school district program 
officials certainly could be interpreted as a very serious challenge. 
While committed to delivering high-quality educational services, school 
board members are increasingly more concerned as they prepare to face 
significant funding reductions in their operating budgets in the coming 
years.
    Additionally, NSBA continues to advocate for the elimination of 
unnecessary and burdensome data collection and reporting requirements 
and mandates. We urge you and your colleagues to establish the 
following criteria to be met before adopting future data collection and 
reporting requirements:
    1. Data collection requirements should be focused on improved 
student learning and performance.
    2. Data collection requirements should not be duplicative of other 
data requested by the U.S. Department of Education, and to the extent 
feasible, not be duplicative of any data collection required by state 
education agencies (SEA) or local education agencies (LEA).
    3. Data collection requirements should be based in law to preclude 
the expansion of data collection requirements currently mandated by the 
U.S. Department of Education.
    We encourage you to review the summaries of the current federal 
requirements identified as burdensome, as well as their rationale for 
eliminating or modifying such requirements.
    NSBA very much appreciates the opportunity to provide additional 
information regarding federal reporting requirements and mandates. We 
look forward to working with you and your staff in the coming weeks as 
you prepare for the reauthorization of the Elementary and Secondary 
Education Act. Questions concerning our survey may be directed to 
Reginald M. Felton, director of federal relations at 703-838-6782, or 
by e-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="601206050c140f0e200e1302014e0f1207">[email&#160;protected]</a>
            Sincerely,
                                        Michael A. Resnick,
                                      Associate Executive Director.

CURRENT FEDERAL DATA COLLECTION OR REPORTING REQUIREMENTS IDENTIFIED AS 
     UNNECESSARY OR BURDENSOME BY LOCAL SCHOOL DISTRICT RESPONDENTS

    A preliminary review of the specific requirements identified as 
being unnecessary or burdensome by individual respondents to the 
informal survey pointing to the kind of reporting requirements that 
should merit further review:
    1. Financial and Personnel Reports related to ARRA, Ed Jobs, and 
SFSF Fund multiple times each year.
    2. Quarterly federal expenditures, including the federal online 
reports related to full time equivalents (FTE).
    3. Reports related to attendance at professional development 
opportunities by paraprofessionals under NCLB.
    4. Reports related to Adequate Yearly Progress (AYP) under NCLB, 
including school accountability report cards.
    5. Title I Comparability Reports, Title I end-year reports and time 
certification paid with federal funds in whole or in part, and other 
reports regardless of the size of the allocation.
    6. Reports related to Supplemental Education Services and Public 
School Choice under NCLB.
    7. Student Data reports under Carl Perkins Career and Technical 
Program, including reports related to E-Tiger.
    8. E-rate forms such as 470 and 471.
    9. Reports related to Special Education Services that are 
overlapping and duplicative.
    10. Reports related to high school drop-out monitoring, 
particularly for students who have relocated or whose status may have 
changed but unable to confirm.
    11. Reports related to the employment of highly qualified teachers, 
including development plans
    12. Poverty Data collection for private schools under Title I.
    13. Mandates for removing principals when schools are in corrective 
action status under NCLB.
    14. Targeted Assistance School reporting on the Consolidated 
Application
    15. Dietary restrictions that do not take into consideration the 
physical size and age of students
    16. Reports related to Title I parent involvement, including annual 
reviews by parents and site reviews.

   SUMMARY OF RATIONALE OFFERED BY LOCAL SCHOOL DISTRICT RESPONDENTS 
            REGARDING UNNECESSARY OR BURDENSOME REQUIREMENTS

    While the respondents offered specific rational for viewing their 
identified requirements as unnecessary or burdensome on local school 
districts, their major concerns could be grouped into the following 
areas:
    1. Much of the data is duplicative and redundant therefore wasting 
very limited staff resources that could be re-directed to improving 
student performance. Separate federal programs require the collection 
of very similar data but on different cycles requiring costly data 
management support teams and hardware.
    2. Many districts have significantly reduced non-instructional 
personnel resulting in far fewer resources to complete the required 
reports.
    3. The frequency in the collection of the data needs to be 
reassessed. Even when the data are important, quarterly collection of 
data that simply reaffirms the presence of deficiencies cannot be 
corrected on a quarterly basis.
    4. Much of the data collected is based on unreliable and invalid 
student assessments resulting in inaccurate representation of the 
student, school, and school district performance
    5. Much of the data requested is simply unrealistic. For example, 
data regarding the value of professional development on student 
performance requires staff expertise that is not available or 
subjective judgments that cannot be made.
    6. The significant amount of staff time required to complete 
reporting requirements is often inversely related to the amount of the 
grant, since no minimum thresholds are established in terms of award 
and the cost to prepare the required reports.
    7. There is little relationship between the data or reporting 
requirement and improvements in student learning.
                                 ______
                                 
    [An additional submission of Mr. Wilhoit follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                                ------                                

    [Whereupon, at 12:35 p.m., the committee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
